No. 19-547

In the Supreme Court of the United States
UNITED STATES FISH AND WILDLIFE SERVICE, ET AL.,
PETITIONERS

v.
SIERRA CLUB, INC.
ON WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

JOINT APPENDIX

NOEL J. FRANCISCO
Solicitor General
Department of Justice
Washington, D.C. 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217

Counsel of Record
for Petitioner

SANJAY NARAYAN
Sierra Club Environmental
Law Program
2101 Webster Street
Suite 1300
Oakland, CA 94612
sanjay.narayan@sierraclub.org
(415) 977-5769

Counsel of Record
for Respondent

PETITION FOR A WRIT OF CERTIORARI FILED: OCT. 25, 2019
CERTIORARI GRANTED: MAR. 2, 2020

TABLE OF CONTENTS

Page
Court of appeals docket entries (17-16560) ............................... 1
District court docket entries (15-cv-05872) ............................. 13
Declaration of Samuel D. Rauch, III, NMFS ......................... 30
Declaration of Gary Frazer, FWS ............................................ 56
Amended complaint for declaratory and injunctive relief
(Mar. 22, 2015) ......................................................................... 73
Emails among Helen Golde, NMFS and Nancy Stoner,
EPA / Rick Sayers, FWS and Robert Wood, EPA
(Oct. 2013) ................................................................................. 88
Emails among NMFS staff (Dec. 2-3, 2013) ............................ 93
Emails among EPA staff (Dec. 3, 2013) ................................. 102
Email among FWS staff (Dec. 9, 2013) .................................. 105
Emails among Ted Boling, FWS and Avi Garbow, EPA
(Dec. 12, 2013) / Lois Schiffer, NMFS and EPA staff
(Dec. 17, 2013) ........................................................................ 106
Excerpt of Endangered Species Act Section 7 Consultation Programmatic Biological Opinion on the U.S.
Environmental Protection Agency’s Issuance
and Implementation of the Final Regulations Section 316(b) of the Clean Water Act (May 19, 2014) ............ 110

(I)

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

Docket No. 17-16560
SIERRA CLUB, INC., PLAINTIFF-APPELLEE
v.
UNITED STATES FISH AND WILDLIFE SERVICE AND
NATIONAL MARINE FISHERIES SERVICE,
DEFENDANTS-APPELLANTS
DOCKET ENTRIES
DATE

DOCKET
NUMBER

8/7/17

1

PROCEEDINGS

DOCKETED CAUSE AND ENTERED APPEARANCES OF
COUNSEL. SEND MQ: Yes.
The schedule is set as follows: Mediation Questionnaire due on
08/14/2017. Appellants National
Marine Fisheries Service and
United States Fish and Wildlife
Service
opening
brief
due
11/13/2017. Appellee Sierra Club,
Inc. answering brief due 12/13/2017.
Appellant’s optional reply brief is
due 21 days after service of the answering brief.
[10534748] (RT)
[Entered: 08/07/2017 09:36 AM]

(1)

2
DATE

DOCKET
NUMBER

9/21/17

12

9/26/17

13

10/13/17

14

PROCEEDINGS

* * * * *
Filed (ECF) Appellee Sierra Club,
Inc. Unopposed Motion to expedite case.
Date of service:
09/21/2017. [10589715] [17-16560]
(Super, Reed) [Entered: 09/21/2017
03:17 PM]
Filed clerk order (Deputy Clerk:
LK): Appellee’s unopposed motion
(Docket Entry No. [12]) to expedite is granted. This case will be
calendared as soon as possible upon
completion of briefing. The opening brief is due October 13, 2017;
the answering brief is due November 13, 2017; and the optional reply
brief is due within 21 days after service of the answering brief. The
parties shall refrain from seeking
any streamlined extension of time
to file a brief. Any motion for an
extension of time to file a brief pursuant to Ninth Circuit Rule 312.2(b) shall be accompanied by a
showing of compelling circumstances.
[10594316] (OC) [Entered: 09/26/2017 10:46 AM]
Submitted (ECF) Opening Brief
for review. Submitted by Appellants NMFS and United States
Fish and Wildlife Service. Date

3
DATE

10/13/17

DOCKET
NUMBER

15

11/13/17

19

11/13/17

20

11/20/17

24

PROCEEDINGS

of service: 10/13/2017. [10617893]
[17-16560] (Pulham, Thomas) [Entered: 10/13/2017 04:54 PM]
Submitted (ECF) excerpts of record.
Submitted by Appellants
NMFS and United States Fish and
Wildlife Service. Date of service:
10/13/2017. [10617902] [17-16560]
(Pulham,
Thomas)
[Entered:
10/13/2017 04:58 PM]
* * * * *
Submitted (ECF) Answering Brief
for review. Submitted by Appellee Sierra Club, Inc.. Date of service:
11/13/2017.
[10651212]
[17-16560] (Super, Reed) [Entered:
11/13/2017 12:14 PM]
Submitted (ECF) supplemental excerpts of record. Submitted by
Appellee Sierra Club, Inc.. Date
of service: 11/13/2017. [10651244]
[17-16560] (Super, Reed) [Entered:
11/13/2017 12:27 PM]
* * * * *
Submitted (ECF) Amicus brief for
review (by government or with consent per FRAP 29(a)). Submitted
by Union of Concerned Scientists.
Date of service: 11/20/2017.
[10661177] [17-16560] —[COURT

4
DATE

DOCKET
NUMBER

PROCEEDINGS

UPDATE:
Attached corrected
brief. 11/21/2017 by SLM] (Goho,
Shaun) [Entered:
11/20/2017
01:59 PM]
12/18/17

2/5/18

33

39

* * * * *
Submitted (ECF) Reply Brief for
review. Submitted by Appellants
NMFS and United States Fish and
Wildlife Service. Date of service:
12/18/2017. [10694682] [17-16560]
(Pulham,
Thomas)
[Entered:
12/18/2017 03:03 PM]
* * * * *
Filed clerk order (Deputy Clerk:
OC): Defendants-Appellants are
directed to submit the twelve documents that the district court held,
after in camera review, must be
disclosed in full or in part (NMFS
44516.1, FWS 252, NMFS 5427.1,
FWS 279, FWS 308, FWS 555,
NMFS 61721, NMFS 5597.1,
NMFS 7544.2, NMFS 37695,
NMFS 37667, NMFS 14973.1) for
review by this Court in camera and
under seal using the event “Notice
of Filing Document under Seal and
Submit
Sealed
Document.”
[10751723]
(OC)
[Entered:
02/05/2018 01:56 PM]

5
DATE

DOCKET
NUMBER

2/13/18

40

2/13/18

41

3/15/18

42

3/15/18

43

PROCEEDINGS

Filed (ECF) IN CAMERA and
UNDER SEAL Appellants NMFS
and United States Fish and Wildlife Service notice of filing document under seal. Type of document: other (Documents requested by the Court’s Order of February
5, 2018.).
Date of service:
02/13/2018. [10762960] [17-16560]
(Pulham,
Thomas)
[Entered:
02/13/2018 04:15 PM]
Filed IN CAMERA and UNDER
SEAL Appellants NMFS and
United States Fish and Wildlife
Service exhibits requested by the
Court’s Order of February 5, 2018.
Served on 02/13/2018 (Document
previously submitted in [40]).
[10763033]
(SML)
[Entered:
02/13/2018 04:38 PM]
ARGUED AND SUBMITTED TO
J. CLIFFORD WALLACE, MARSHA S. BERZON and TERRENCE BERG.
[10800013]
(Learned,
Glen)
[Entered:
03/15/2018 02:23 PM]
Filed Audio recording of oral argument.
Note: Video recordings of public
argument calendars are available

6
DATE

DOCKET
NUMBER

8/3/18

44

8/10/18

45

12/3/18

48

12/6/18

49

PROCEEDINGS

on the Court’s website, at http://
www.ca9.uscourts.gov/media/
[10801959]
(DO)
[Entered:
03/16/2018 02:33 PM]
Filed (ECF) Appellants NMFS
and United States Fish and Wildlife Service citation of supplemental authorities. Date of service:
08/03/2018.
[10964930]
[17-16560] (Pulham, Thomas) [Entered: 08/03/2018 09:38 AM]
Filed (ECF) Appellee Sierra Club,
Inc. citation of supplemental authorities.
Date of service:
08/10/2018. [10973071] [17-16560]
(Super,
Reed)
[Entered:
08/10/2018 11:20 AM]
* * * * *
Filed SEALED order (J. CLIFFORD WALLACE, MARSHA S.
BERZON
and
TERRENCE
BERG) (SEE ORDER FOR FULL
TEXT).
All counsel served via
email.
[11106444] (RMM) [Entered: 12/03/2018 09:47 AM]
Filed (ECF) UNDER SEAL Appellee Sierra Club, Inc. motion to
file document under seal and submit sealed document.
Type of
document: other (Letter). Date
of service: 12/06/2018. [11112559]

7
DATE

DOCKET
NUMBER

12/7/18

50

12/7/18

51

12/21/18

52

12/21/18

53

PROCEEDINGS

[17-16560]—[COURT UPDATE:
Attached corrected motion and
brief. 12/7/2018 by TYL] (Super,
Reed) [Entered: 12/06/2018 02:02
PM]
Filed Appellee Sierra Club, Inc.
motion to file document UNDER
SEAL.
Deficiencies:
None.
Served on 12/06/2018. (Court entered filing, originally submitted in
[49]) [11113448] (KWG) [Entered:
12/07/2018 08:42 AM]
Submitted (ECF) UNDER SEAL
Letter Brief for review. Submitted by Appellee Sierra Club, Inc..
Date of service: 12/06/2018.
(Court-entered filing, brief originally submitted in [49].) [11113470]
(KWG) [Entered:
12/07/2018
08:47 AM]
Filed order (J. CLIFFORD WALLACE, MARSHA S. BERZON
and TERRENCE BERG) Plaintiff-Appellee’s motion to seal its
letter
brief
is
granted.
[11129668]
(OC)
[Entered:
12/21/2018 08:56 AM]
FILED OPINION (J. CLIFFORD
WALLACE, MARSHA S. BERZON and TERRENCE BERG)

8
DATE

DOCKET
NUMBER

PROCEEDINGS

For the foregoing reasons the district court’s order to produce the
December 2013 draft jeopardy biological opinions (NMFS 44516.1
and FWS 252), the March 2014
RPA (FWS 555), and the remaining statistical and instructional
documents (NMFS 5597.1, NMFS
61721, NMFS 7544.2, NMFS
37695, NMFS 37667, NMFS
14973.1) is AFFIRMED because
the record shows that these materials are not both pre-decisional
and deliberative and therefore not
exempt under § 522(b)(5) of FOIA,
Exemption 5. The district court’s
order to produce the December
2013 RPAs (FWS 279, 308) and the
April 2014 draft jeopardy opinion
(NMFS 5427.1) is REVERSED because these materials are both predecisional and deliberative and
thus exempt from disclosure under
FOIA Exemption 5. The parties
agree that reversal would require
the district court to perform a segregability analysis on remand.
We instruct the district court to
perform that analysis. The case
is REMANDED for further proceedings consistent with this opin-

9
DATE

DOCKET
NUMBER

PROCEEDINGS

ion. Opinion by Judge Berg; Partial Concurrence and Partial Dissent by Judge Wallace. FILED
AND ENTERED JUDGMENT.
[11129820]
(MM)
[Entered:
12/21/2018 09:33 AM]
12/21/18

1/24/19

3/11/19

55

60

63

* * * * *
Filed clerk order (Deputy Clerk:
MM):
At the direction of the
Court, the parties shall bear their
own costs. [11131184] (MM) [Entered: 12/21/2018 02:47 PM]
* * * * *
Filed text clerk order (Deputy
Clerk: WL): Appellants NMFS
and United States Fish and Wildlife Service Unopposed Motion to
stay appellate proceedings (Docket
Entry No. [57]) is granted.
[11164746]
(WL)
[Entered:
01/24/2019 10:14 AM]
* * * * *
Filed (ECF) Appellants NMFS
and United States Fish and Wildlife Service petition for panel rehearing and petition for rehearing
en banc (from 12/21/2018 opinion).
Date of service:
03/11/2019.
[11223577] [17-16560] (Pulham,

10
DATE

DOCKET
NUMBER

4/1/19

64

4/22/19

65

5/30/19

66

PROCEEDINGS

Thomas) [Entered:
03/11/2019
04:30 PM]
Filed order (J. CLIFFORD WALLACE, MARSHA S. BERZON
and TERRENCE BERG) Within
21 days from the filing of this order, Plaintiff-Appellee is directed
to file a response to the petition for
panel rehearing and petition for rehearing en banc (Docket Entry No.
[63]). The response shall comply
with Federal Rule of Appellate
Procedure 32 and Ninth Circuit
Rule 40-1. [11248541] (WL) [Entered: 04/01/2019 01:41 PM]
Filed (ECF) Appellee Sierra Club,
Inc. response opposing Combo
PFR Panel and En Banc (ECF Filing), Combo PFR Panel and En
Banc (ECF Filing). Date of service:
04/22/2019. [11271374].
[17-16560]—[COURT UPDATE:
Updated docket text to reflect content of filing. 4/22/2019 by TYL]
(Super,
Reed)
[Entered:
04/22/2019 08:45 AM]
Filed order and amended opinion
(J.
CLIFFORD
WALLACE,
MARSHA S. BERZON and TERRENCE BERG) Amending Dispo-

11
DATE

5/31/19

DOCKET
NUMBER

67

PROCEEDINGS

sition Opinion AFFIRMED REVERSED; REMANDED.
The
Opinion filed December 21, 2018
and reported at 911 F.3d 967 is
hereby amended. The amended
opinion will be filed concurrently
with this order. A majority of the
panel has voted to deny the petition
for panel rehearing.
The full
court was advised of the petition
for rehearing en banc. No judge
requested a vote on whether to rehear the matter en banc pursuant
to Fed. R. App. P. 35(f ). The petition for panel rehearing and the
petition for rehearing en banc are
DENIED. Future petitions for
rehearing or rehearing en banc will
not be entertained in this case.
[11313046]
(RMM)
[Entered:
05/30/2019 09:29 AM]
Filed (ECF) Appellee Sierra Club,
Inc. Unopposed Motion for miscellaneous relief [Motion under Circuit Rule 39-1.8 to transfer consideration of attorneys fees on appeal
to district court]. Date of service:
05/31/2019. [11314708] [17-16560]
(Super,
Reed)
[Entered:
05/31/2019 07:45 AM]

12
DATE

DOCKET
NUMBER

6/7/19

68

6/17/19

69

PROCEEDINGS

MANDATE ISSUED.
(JCW,
MSB and TGB) [11322999] (RL)
[Entered: 06/07/2019 08:49 AM]
Filed order (J. CLIFFORD WALLACE, MARSHA S. BERZON
and TERRENCE BERG) Appellee’s unopposed motion to transfer
consideration of attorneys’ fees
and litigation costs on appeal to the
district court is granted (Dkt. No.
[67]).
See Circuit Rule 39-1.8.
[11333068]
(WL)
[Entered:
06/17/2019 08:56 AM]
*

*

*

*

*

13
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
(SAN FRANCISCO)

Docket No. 3:15-cv-05872-EDL
SIERRA CLUB, INC., PLAINTIFF
v.
UNITED STATES FISH AND WILDLIFE SERVICE AND
NATIONAL MARINE FISHERIES SERVICE, DEFENDANTS
DOCKET ENTRIES
DATE

12/21/15

1/27/16

DOCKET
NUMBER

1

8

PROCEEDINGS

COMPLAINT against National
Marine Fisheries Service. Filed
by Sierra Club, Inc. Receipt No.
0971-10081040, $400.00. (Attachments: # 1 Exhibit A, # 2 Exhibit
B, # 3 Exhibit C, # 4 Exhibit D, #
5 Exhibit E, # 6 Exhibit F, # 7 Exhibit G, # 8 Exhibit H, # 9 Exhibit
I, # 10 Exhibit J, # 11 Exhibit K,
# 12 Exhibit L, # 13 Civil Cover
Sheet) (Super, Reed) (Filed on
12/21/2015) Modified on 12/21/2015
(cj1S, COURT STAFF).
(Entered: 12/21/2015)
* * * * *
ANSWER to 1 Complaint by National Marine Fisheries Service.
(Garbers, Wendy) (Filed on

14
DATE

DOCKET
NUMBER

PROCEEDINGS

1/27/2016) Modified on 1/28/2016
(aaaS, COURT STAFF).
(Entered: 01/27/16)
3/15/16

17

3/22/16

18

* * * * *
CASE MANAGEMENT STATEMENT (Joint) filed by National
Marine Fisheries Service. (Garbers, Wendy) (Filed on 3/15/2016)
(Entered on 3/15/2016)
AMENDED COMPLAINT FOR
DECLARATORY AND INJUNCTIVE RELIEF; against All Defendants. Filed by Sierra Club,
Inc. (Attachments: # 1 Exhibit
A, # 2 Exhibit B # 3 Exhibit C,
# 4 Exhibit D, # 5 Exhibit E, # 6
Exhibit F, # 7 Exhibit G, # 8 Exhibit H, # 9 Exhibit I, # 10 Exhibit
J, # 11 Exhibit K, # 12 Exhibit L,
# 13 Exhibit M, # 14 Exhibit N, #
15 Exhibit O) (Super, Reed) (Filed
on 3/22/2016) Modified on 3/23/2016
(aaaS, COURT STAFF).
(Entered: 03/22/2016)
*

3/22/16

20

*

*

*

*

Minute Entry for case management
conference held before Magistrate
Judge Elizabeth D. Laporte on
3/22/2016.
Plaintiff to file an
amended complaint on 3/22/2016.

15
DATE

DOCKET
NUMBER

PROCEEDINGS
Current defendant to complete
FOIA production by 4/8/2016. A
further case management conference is set for 6/7/2016 at 10:00 am in
Courtroom E, 15th floor, San Francisco. An updated case management statement shall be filed by
5/31/2016.
FTR Time 10:23 - 10:27
Plaintiff
Attorneys:
Nicholas
Jimenez and Reed Super (telephonic appearance)
Defendant Attorney:
bers

Wendy Gar-

This is a text only Minute Entry
(shyS, COURT STAFF) (Date Filed:
3/22/2016) (Entered: 03/22/2016)

4/22/16

8/15/16

24

34

* * * * *
ANSWER to 18 Amended Complaint by National Marine Fisheries Service, United States Fish and
Wildlife Service.
(Garbers,
Wendy) (Filed on 4/22/2016) Modified on 4/25/2016 (aaaS, COURT
STAFF). (Entered: 04/22/2016)
* * * * *
CASE MANAGEMENT STATEMENT (Joint) filed by National
Marine Fisheries Service, United

16
DATE

DOCKET
NUMBER

PROCEEDINGS

States Fish and Wildlife Service.
(Garbers, Wendy) (Filed on
8/15/2016) (Entered: 08/15/2016)
8/23/16

35

Minute Entry for further case management conference held
on
8/23/2016 before Magistrate Judge
Elizabeth D. Laporte. On or before
9/16/2016, the defendant shall provide Plaintiff with a supplemental
privilege log providing additional
detail with respect to the entries
identified by plaintiff. Plaintiff to
identify the documents at issue for
summary judgment by 9/30/2016.
Parties to submit a joint proposal to
the Court regarding a proposed
summary judgment briefing schedule by 10/14/2016.
FTR Time:

10:16 - 10:18

Plaintiff Attorneys: Katie Schaefer
and Reed Super (telephonic appearance)
Defendant Attorney:
bers

Wendy Gar-

This is a text only Minute Entry
(shyS, COURT STAFF) (Date
Filed:
8/23/2016)
(Entered:
08/23/2016)

10/13/16

36

JOINT CASE MANAGEMENT
STATEMENT
Re
Summary

17
DATE

DOCKET
NUMBER

PROCEEDINGS

Judgment filed by United States
Fish and Wildlife Service. (Garbers, Wendy) (Filed on 10/13/2016)
(Entered: 10/13/2016)
10/18/16

37

12/1/16

40

12/1/16

41

ORDER Adopting Joint Proposal
Re Summary Judgment Schedule
signed by Magistrate Judge Elizabeth D. Laporte. (shyS, COURT
STAFF) (Filed on 10/18/2016) (Entered: 10/18/2016)

* * * * *
MOTION for Summary Judgment
filed by Sierra Club, Inc.. Motion
Hearing set for 5/23/2017 09:00 AM
in Courtroom E, 15th Floor, San
Francisco before Magistrate Judge
Elizabeth D. Laporte. Responses
due by 2/13/2017. Replies due by
3/17/2017.
(Attachments: # 1
Proposed Order) (Super, Reed)
(Filed on 12/1/2016) (Entered:
12/01/2016)
Declaration of Reed W. Super in
Support of 40 MOTION for Summary Judgment filed by Sierra
Club, Inc.. (Attachments: # 1
Exhibit Exhibit 1, # 2 Exhibit Exhibit 2, # 3 Exhibit Exhibit 3, # 4
Exhibit Exhibit 4, # 5 Exhibit Exhibit 5, # 6 Exhibit Exhibit 6, # 7

18
DATE

2/13/17

DOCKET
NUMBER

42

PROCEEDINGS

Exhibit Exhibit 7, # 8 Exhibit Exhibit 8, # 9 Exhibit Exhibit 9, # 10
Exhibit Exhibit 10, # 11 Exhibit
Exhibt 11, # 12 Exhibit Exhibit 12,
# 13 Exhibit Exhibit 13, # 14 Exhibit Exhibit 14, # 15 Exhibit Exhibit 15, # 16 Exhibit Exhibit 16, #
17 Exhibit Exhibit 17, # 18 Exhibit
Exhibit 18, # 19 Exhibit Exhibit
19, # 20 Exhibit Exhibit 20, # 21
Exhibit Exhibit 21, # 22 Exhibit
Exhibit 22, # 23 Exhibit Exhibit
23) (Related document(s) 40) (Super, Reed) (Filed on 12/1/2016)
(Entered: 12/01/2016)
MOTION for Summary Judgment
Defendants’ Cross Motion for
Summary Judgment and Opposition to Plaintiff ’s Summary Judgment Motion; Memorandum of
Points and Authorities filed by
National Marine Fisheries Service,
United States Fish and Wildlife
Service.
Motion
Hearing
set for 5/23/2017 09:00 AM before
Magistrate Judge Elizabeth D.
Laporte.
Responses due by
3/17/2017.
Replies due by
4/21/2017.
(Garbers, Wendy)
(Filed on 2/13/2017) (Entered:
02/13/2017)

19
DATE

DOCKET
NUMBER

2/13/17

43

2/13/17

44

PROCEEDINGS

Declaration of Gary Frazer in Support of 42 MOTION for Summary
Judgment Defendants’ Cross Motion for Summary Judgment and
Opposition to Plaintiff ’s Summary Judgment Motion; Memorandum of Points and Authorities
Declaration of Gary Frazer filed
by National Marine Fisheries Service, United States Fish and Wildlife
Service. (Attachments: # 1 Exhibit Exhibit A) (Related document(s) 42) (Garbers, Wendy)
(Filed on 2/13/2017) (Entered:
02/13/2017)
Declaration of Samuel D. Rauch,
III in Support of 42 MOTION for
Summary Judgment Defendants’
Cross Motion for Summary Judgment and Opposition to Plaintiff’s
Summary Judgment Motion; Memorandum of Points and Authorities
Declaration of Samuel D. Rauch,
III filed by National Marine Fisheries Service, United States Fish
and Wildlife Service. (Related document(s)
42)
(Garbers, Wendy) (Filed on 2/13/2017)
(Entered: 02/13/2017)
*

*

*

*

*

20
DATE

DOCKET
NUMBER

3/31/17

47

3/31/17

48

5/5/17

49

PROCEEDINGS

OPPOSITION/RESPONSE
(re
40 MOTION for Summary Judgment, 42 MOTION for Summary
Judgment Defendants’ Cross Motion for Summary Judgment and
Opposition to Plaintiff ’s Summary Judgment Motion; Memorandum of Points and Authorities) Opposition to Defendants’
Cross Motion for Summary Judgment and Reply to Defendants’
Opposition to Plaintiff ’s Motion
for Summary Judgment filed by
Sierra Club, Inc.. (Attachments:
# 1 Proposed Order Updated) (Super, Reed) (Filed on 3/31/2017) (Entered: 03/31/2017)
Declaration of Reed W. Super in
Support
of
47
Opposition/
Response to Motion,, filed by Sierra Club, Inc.. (Attachments: #
1 Exhibit A, # 2 Exhibit B, # 3 Exhibit C, # 4 Exhibit D, # 5 Exhibit
E, # 6 Exhibit F, # 7 Exhibit G)
(Related document(s) 47) (Super,
Reed) (Filed on 3/31/2017) (Entered: 03/31/2017)
REPLY (re 42 MOTION for Summary Judgment Defendants’ Cross
Motion for Summary Judgment
and Opposition to Plaintiff ’s Sum-

21
DATE

DOCKET
NUMBER

5/5/17

50

6/6/17

51

PROCEEDINGS

mary Judgment Motion; Memorandum of Points and Authorities)
filed by National Marine Fisheries
Service, United States Fish and
Wildlife Service. (Garbers, Wendy)
(Filed on 5/5/2017) (Entered:
05/05/2017)
Proposed Order re 40 MOTION for
Summary Judgment, 42 MOTION
for Summary Judgment Defendants’ Cross Motion for Summary
Judgment and Opposition to
Plaintiff ’s Summary Judgment
Motion; Memorandum of Points
and Authorities by National Marine Fisheries Service, United
States Fish and Wildlife Service.
(Garbers, Wendy) (Filed on
5/5/2017) (Entered: 05/05/2017)
Minute Entry for proceedings
held on 6/6/2017 before Magistrate
Judge Elizabeth D. Laporte regarding the cross motions for summary judgment. By 6/13/2017, Defendants shall lodge in camera the
December 2013 Biological Opinions
and RPAs, and Parties shall file
joint statement with description
of lodged documents and summary of which records remain in
dispute.

22
DATE

DOCKET
NUMBER

PROCEEDINGS
FTR Time 9:06 - 9:36
Plaintiff Attorneys:
and Katie Schaefer
Defendant
Garbers

Attorney:

Reed Super
Wendy

This is a text-only Minute Entry
(shyS, COURT STAFF) (Date
Filed:
6/6/2017) Modified on
9/20/2017: Matter transcribed by
Tara Bauer (ECHO Reporting).
(rjdS, COURT STAFF).
(Entered: 06/06/2017)

6/13/17

52

JOINT CASE MANAGEMENT
STATEMENT filed by National
Marine Fisheries Service, United
States Fish and Wildlife Service.
(Garbers, Wendy) (Filed on
6/13/2017) (Entered: 06/13/2017)

6/23/17

53

7/24/17

54

ORDER RE: In Camera Review
by Magistrate Judge Elizabeth D.
Laporte. (shyS, COURT STAFF)
(Filed on 6/23/2017) (Entered:
06/23/2017)
ORDER Following In Camera Review by Magistrate Judge Elizabeth D. Laporte. (shyS, COURT
STAFF) (Filed on 7/24/2017) (Entered: 07/24/2017)

23
DATE

DOCKET
NUMBER

7/24/17

55

7/28/17

58

7/31/17

59

8/1/17

60

PROCEEDINGS
JUDGMENT by Magistrate Judge
Elizabeth D. Laporte.
(shyS,
COURT
STAFF)
(Filed
on
7/24/2017) (Entered: 07/24/2017)

* * * * *
ADMINISTRATIVE
MOTION
Stay Pending Appeal re 54 Order
filed by National Marine Fisheries
Service, United States Fish and
Wildlife Service. Responses due
by 8/2/2017.
(Garbers, Wendy)
(Filed on 7/28/2017) (Entered:
07/28/2017)
STIPULATION WITH PROPOSED ORDER re 58 ADMINISTRATIVE MOTION Stay Pending
Appeal re 54 Order, 54 Order filed
by National Marine Fisheries Service, United States Fish and Wildlife Service.
(Garbers, Wendy)
(Filed on 7/31/2017) (Entered:
07/31/2017)
STIPULATION AND ORDER re
One-Week Extension of August 7,
2017 Production Deadline and
Plaintiff ’s Response to Motion to
Stay signed by Magistrate Judge
Elizabeth D. Laporte: granting 59
Stipulation. (shyS, COURT STAFF)
(Filed on 8/1/2017) (Entered:
08/01/2017)

24
DATE

DOCKET
NUMBER

8/2/17

61

8/3/17

62

8/3/17

63

8/4/17

64

PROCEEDINGS

OPPOSITION/RESPONSE (re 58
ADMINISTRATIVE
MOTION
Stay Pending Appeal re 54 Order)
filed by Sierra Club, Inc.. (Super,
Reed) (Filed on 8/2/2017) (Entered: 08/02/2017)
REPLY (re 58 ADMINISTRTIVE
MOTION Stay Pending Appeal re
54 Order) filed by National Marine
Fisheries Service, United States
Fish and Wildlife Service. (Garbers, Wendy) (Filed on 8/3/2017)
(Entered: 08/03/2017)
Proposed Order re 58 ADMINISTRATIVE MOTION Stay Pending
Appeal re 54 Order by National
Marine Fisheries Service, United
States Fish and Wildlife Service.
(Garbers, Wendy) (Filed on
8/3/2017) (Entered: 08/03/2017)
NOTICE OF APPEAL to the 9th
Circuit Court of Appeals re 55
Judgment; filed by National Marine Fisheries Service, United
States Fish and Wildlife Service.
(Appeal fee FEE WAIVED.) (Attachments:
# 1 Exhibit A,
# 2 Exhibit B) (Garbers, Wendy)
(Filed on 8/4/2017) Modified on
8/8/2017 (aaaS, COURT STAFF).
(Additional attachment(s) added on

25
DATE

DOCKET
NUMBER

PROCEEDINGS

8/9/2017: # 3 USCA NUMBER 1716560) (aaa, COURT STAFF).
(Entered: 08/04/2017)
*
8/10/17

67

8/22/17

68

*

*

*

*

ORDER EXTENDING AUGUST 14,
2017 PRODUCTION DEADLINE
TO AUGUST 24, 2017. Signed by
Magistrate Judge Elizabeth D.
Laporte on 8/10/17. (klhS, COURT
STAFF) (Filed on 8/10/2017) (Entered: 08/10/2017)
Minute Entry for proceedings held
on 8/22/2017 before Magistrate
Judge Elizabeth D. Laporte regarding motion to stay. The production
deadline is extended to 9/6/2017.
The parties shall file a joint submission by 9/6/2017.
The joint submission shall address the parties’
respective
positions
regarding
whether the requested stay should
apply to the five documents identified by the Court during the hearing. In addition, the joint submission should address the 9th Circuit’s
standard for expediting appeal.
FTR Time 1:50 - 2:06
Plaintiff Attorneys: Katie Schaefer
and Reed Super (telephonic appearance)

26
DATE

DOCKET
NUMBER

PROCEEDINGS
Defendant Attorney:
bers

Wendy Gar-

This is a text-only Minute Entry
(shyS, COURT STAFF) (Date Filed:
8/22/2017) (Entered: 08/23/2017)

9/1/17

69

STIPULATION WITH PROPOSED ORDER re 58 ADMINISTRATIVE MOTION Stay Pending
Appeal re 54 Order, 68 Motion
Hearing,, filed by National Marine
Fisheries Service, United States
Fish and Wildlife Service. (Garbers, Wendy) (Filed on 9/1/2017)
(Entered: 09/01/2017)

9/5/17

70

STIPULATION AND ORDER Re
Stay Pending Appeal signed by
Magistrate Judge Elizabeth D.
Laporte: granting 69 Stipulation.
(shyS, COURT STAFF) (Filed on
9/5/2017) (Entered: 09/05/2017)

9/26/17

72

* * * * *
Transcript of Proceedings of the
official sound recording held on
06/06/17, before Magistrate Judge
Elizabeth D. Laporte. FTR/ Transcriber Echo Reporting, Inc., telephone number 8584537590. Tape
Number: FTR 9:06 - 9:36. Per
General Order No. 59 and Judicial
Conference policy, this transcript

27
DATE

DOCKET
NUMBER

PROCEEDINGS

may be viewed only at the Clerk’s
Office public terminal or may be
purchased through the Court Reporter/Transcriber until the deadline for the Release of Transcript
Restriction.
After that date it
may be obtained through PACER.
Any Notice of Intent to Request
Redaction, if required, is due no
later than 5 business days from
date of fling. (Re 71 Transcript
Order,) Redaction Request due
10/17/2017. Redacted Transcript
Deadline set for 10/27/2017. Release of Transcript Restrictions set
for 12/26/2017.
(Related docuCOURT
ments(s)
71)
(tgb,
STAFF) (Filed on 9/26/2017) (Entered: 09/26/2017)
2/1/19

74

2/4/19

75

* * * * *
STIPULATION WITH PROPOSED ORDER filed by Fish and
Wildlife Service, National Marine
Fisheries Service.
(Garbers,
Wendy) (Filed on 2/1/2019) (Entered: 02/01/2019)
STIPULATION AND ORDER re
Clarification of Stays Pending Appeal signed by Magistrate Judge
Elizabeth D. Laporte: granting 74
Stipulation.
(shyS,
COURT

28
DATE

DOCKET
NUMBER

PROCEEDINGS
STAFF) (Filed on 2/4/2019) (Entered: 02/04/2019)

6/4/19

80

6/5/19

81

6/17/19

83

* * * * *
STIPULATION WITH PROPOSED ORDER filed by National
Marine Fisheries Service, United
States Fish and Wildlife Service.
(Garbers, Wendy) (Filed on
6/4/2019) (Entered: 06/04/2019)
STIPULATION AND ORDER Re
Deadlines signed by Magistrate
Judge Elizabeth D. Laporte: granting 80 Stipulation. (shyS, COURT
STAFF) (Filed on 6/5/2019) (Entered: 06/05/2019)

* * * * *
STIPULATION WITH PROPOSED ORDER Re Further Segregability Analysis filed by National Marine Fisheries Service,
United States Fish and Wildlife
Service.
(Garbers, Wendy)
(Filed on 6/17/2019) (Entered:
06/17/2019)
*

6/18/19

85

*

*

*

*

STIPULATION AND ORDER Re
Further Segregability Analysis
signed by Magistrate Judge Elizabeth D. Laporte: granting 83 Stipulation. (shyS, COURT STAFF)

29
DATE

DOCKET
NUMBER

PROCEEDINGS
(Filed on
06/18/2019)

6/18/2019)

(Entered:

8/12/19

86

STIPULATION WITH PROPOSED ORDER filed by United
States Fish and Wildlife Service.
(Garbers, Wendy) (Filed on
8/12/2019) (Entered: 08/12/2019)

9/25/19

87

ORDER Re Further Segregability
Analysis signed by Magistrate
Judge Elizabeth D. Laporte: granting 86 Stipulation. (shyS, COURT
STAFF) (Filed on 8/12/2019) (Entered: 08/12/2019)

*

*

*

*

*

30
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION

Case No. 15-cv-05872 EDL
SIERRA CLUB, INC., PLAINTIFF
v.
NATIONAL MARINE FISHERIES SERVICE AND UNITED
STATES FISH AND WILDLIFE SERVICE, DEFENDANTS
DECLARATION OF SAMUEL D. RAUCH, III

I, Samuel D. Rauch, III, do hereby declare the following:
1. I am currently the Acting Assistant Administrator for the National Marine Fisheries Service
(“NMFS”), a component of the National Oceanic and Atmospheric Administration (“NOAA”), and in 2012 and
2013 I also performed the duties and functions of the Assistant Administrator. Since 2006, I have served as the
Deputy Assistant Administrator for Regulatory Programs for NMFS. In that capacity I oversee NMFS regulatory actions and programs. This includes consultations under the Endangered Species Act (“ESA”), 16
U.S.C. §§ 1531 et seq, on actions authorized, funded or
carried out by Federal agencies, to assist the agencies
in meeting their ESA Section 7(a)(2) obligation to insure
that their actions are not likely to jeopardize species
listed as threatened or endangered under the ESA and
not likely to destroy or adversely modify critical habitat
designated for those species. I make this declaration
based on personal knowledge and information available

31
to me in my capacity as the Acting Assistant Administrator for NMFS and Deputy Assistant Administrator
for Regulatory Programs for NMFS.
2. Prior to my roles as Acting Assistant Administrator and Deputy Assistant Administrator for Regulatory Programs, I served as the Assistant General Counsel for Fisheries, as head of the office providing legal
counsel to NMFS. Previously, I served as a trial attorney and then Assistant Section Chief for the Wildlife
and Marine Resources Section of the Environment and
Natural Resources Division of the U.S. Department of
Justice.
3. I hold a J.D. from the Northwestern School of
Law of Lewis & Clark College, a M.S. from the University of Georgia, and a B.A. from the University of Virginia.
4. As required by Section 7(a)(2) of the ESA, the
Environmental Protection Agency (“EPA”) consulted
with NMFS and the US Fish and Wildlife Service
(“FWS”) (collectively “the Services”) to insure that
EPA’s regulation (“Regulation”) for cooling water intakes (“CWIS”), issued pursuant to Section 316(b) of the
Clean Water Act, is not likely to jeopardize the continued existence of species listed as endangered or threatened under the ESA or to destroy or adversely modify
their critical habitat. ESA Section 7(b)(3) requires
that at the end of consultation one or both Services, depending on the species and habitat affected, provide a
biological opinion on whether the action complies with
the mandate of Section 7(a)(2). If the Services conclude that a proposed action will not comply with the
Section 7(a)(2) standard, the Services include a reasonable and prudent alternative (“RPA”) that will allow the

32
action to proceed in compliance. If the Services conclude that the action will meet the Section 7(a)(2) standard, no RPA is required or included in the biological
opinion. Pursuant to ESA Section 7(b)(4), the Services
include in a biological opinion an incidental take statement (“ITS”) that specifies the impact to listed species,
reasonable and prudent measures (“RPMs”) necessary or
appropriate to minimize that impact, and terms and conditions (“T&Cs”) to implement the RPMs.
5. The consultation on EPA’s Regulation presented
multiple complex and novel issues for all three agencies,
NMFS, FWS and EPA. None of the agencies had previously participated in an ESA Section 7(a)(2) consultation on earlier EPA regulations implementing Section
316(b). During the almost two years of the consultation process, personnel from all three agencies met routinely, sometimes more than once a week. In addition
to these meetings, there were multiple conference calls
and many emails involving one, two or all three agencies.
During the frank discussions over this lengthy period,
multiple options for the Regulation and the biological
opinion were considered, reconsidered, with most being
rejected. Multiple pre-decisional drafts of the Regulation, the biological opinion, and portions of those documents, as well as briefing and options papers, were circulated intra- and interagency. Multiple comments and
suggestions were exchanged, often by several people on
the same document, and sometimes those comments and
suggestions conflicted. Documents were revised on
the author’s own initiative or in response to comments
and then recirculated. NMFS and FWS generated
many drafts of the biological opinion during that internal and interagency discussion. In addition, the Services for much of this time were each writing their own

33
separate opinions, but determined ultimately to issue a
joint opinion.
6. At the conclusion of that consultation, on May
19, 2014, Donna Wieting, Director of NMFS Office of
Protected Resources co-signed, with Paul Souza of
FWS, Endangered Species Act Section 7 Consultation
Programmatic Biological Opinion on the U.S. Environmental Protection Agency’s Issuance and Implementation of the Final Regulations Section 316(b) of the Clean
Water Act (“Opinion”). The Services concluded in the
Opinion that EPA’s issuance of the Regulation was not
likely to jeopardize the continued existence of listed species or destroy or adversely modify their designated
critical habitat. Although within NMFS the signing of
biological opinions issued in NMFS headquarters is delegated to the Director of the Office of Protected
Resources, I also participated in many meetings and
conference calls, both internal and interagency, and
reviewed the Opinion. I am personally familiar with
the consultation and the issues that arose.
7. On August 11, 2014, Sierra Club filed a Freedom
of Information Act (“FOIA”) (5 U.S.C. § 552) request
with NMFS. The request was extraordinarily broad
and sought documents the vast majority of which are
protected under the deliberative process privilege,
attorney-client communication privilege, attorney work
product, and FOIA (b)(5), and not subject to disclosure
under FOIA:
(1) All NMFS drafts of all or portions of the Endangered Species Act Section 7 Consultation Programmatic Biological Opinion on the U.S. Environmental Protection Agency’s Issuance and Implementation of the Final Regulations Section 316(b) of the

34
Clean Water Act (the “BiOp”), Incidental Take Statement and its appendices;
(2) All documents exchanged between NMFS
staff and within NOAA, and between NOAA/NMFS
and the Environmental Protection Agency (EPA), or
any other governmental agency or official, during interagency review of, and concerning, drafts of the
BiOp and/or Incidental Take Statement;
(3) All documents between NMFS staff and
within NOAA, and between NOAA/NMFS and EPA,
or any other governmental agency or official, concerning the ESA section 7 consultation on EPA’s
most recently proposed 316(b) rule;
(4) All documents serving as the basis for, or
which were considered by, NOAA and/or NMFS in
connection with its “no jeopardy” and/or “no adverse
modification” of critical habitat findings on the ESA
section 7 consultation for the most recently proposed
316(b) rule; including but not limited to: a) any and
all data, documents, communications and records
pertaining to all species of sturgeon, and any opinions
by NMFS staff or others on potential impacts to sturgeon; b) any and all data, documents, communications and records of any type reflecting any changes
to NMFS’ opinions or conclusions concerning its
jeopardy determinations for sturgeon or any other
species; c) any and all identification by NMFS of any
requirements that would have to be met to avoid
jeopardy findings for sturgeon or any other species,
whether or not it was included in the final BiOp or
Incidental Take Statement; d) any draft or proposed
jeopardy opinion that was sent by NMFS to the U.S.

35
Fish and Wildlife Service, U.S. Environmental Protection Agency, or any other agency, for the sturgeon
or any other species;
(5) If not otherwise produced in response to the
sections above, all documents or communications of
every type between NOAA and/or NMFS and the Office of Management and Budget and/or the Council
on Environmental Quality, and any of the agencies’
personnel, concerning the ESA section 7 consultation
on the 316(b) rule, including but not limited to any records of telephone conversations, emails or meetings
between the agencies or their personnel on this subject, any draft (full or partial) BiOp or Incidental
Take Statements between NMFS, OMB and/ or CEQ
on this subject;
(6) If not otherwise produced in response to the
sections above, all documents or communications of
every type between NOAA and/or NMFS and the
U.S. Fish and Wildlife Service, and any of the agencies’ personnel, concerning the ESA section 7 consultation on the 316(b) Rule, including but not limited to:
a) all communications between NMFS and the FWS
with subject lines including the terms 316(b) or Cooling Water Intake; b) all communications between the
Protected Resources Division of NMFS and Drew
Crane at FWS
(7) All documents between NMFS staff and between NMFS and EPA, or any other governmental
agency or official, concerning any ESA section 7 consultation on EPA’s previously proposed 316(b)
rule(s), including for new sources as well as existing
sources;

36
(8) All documents exchanged and all documents
related to any meetings, telephone conversations,
emails, or any other communications between
and/or NMFS and the utility (i.e., electric generation) industry or manufacturing industry, representatives of the utility or manufacturing industries,
trade groups, special interest groups, and/or other
non­governmental parties relating to the ESA section 7 consultation on the 316(b) rule.”
8. In response, NMFS staff conducted an extremely
broad search. NMFS staff queried 74 people from
NOAA and NMFS who had worked in any capacity on
the consultation for their responsive records. In addition, NMFS staff searched the electronic files of people
who had worked on the project but who were no longer
with NMFS. Ultimately, NMFS located 5,724 responsive documents. NMFS released 1,272 documents in
full. I asserted the deliberative process privilege and
released 1,536 documents with redactions of privileged
and non-responsive text, and withheld in full 2,916 documents as privileged.
9. NMFS provided interim responses to this Sierra
Club FOIA on March 3, August 3, September 10,
November 2, and December 11, 2015, and February 4,
February 22, and March 24, 2016. NMFS’ final response was sent April 6, 2016. NMFS released in full
documents that were not subject to any privilege, redacted privileged portions of documents, and withheld
privileged documents in full.
10. Of those documents, NMFS filed a privilege log
for 1,090 of those documents in a separate litigation regarding this same documents. Cooling Water Intake
Structure Coalition et al. v. EPA et al, No. 14-4645(L) and

37
consolidated cases 14-4657, 14-4659, 14-4664, 14-4667, and
14-4670 (2nd Circuit). Included among the drafts of
the Opinion identified by Plaintiffs is Document
0.7.266.44516.1, a December 6, 2013 NMFS draft opinion, in which NMFS preliminarily concluded that EPA’s
draft of the Regulation in its then-current-form was
likely to jeopardize listed species and destroy or
adversely modify designated critical habitat. Originally, NMFS had agreed to share a draft of its opinion
with EPA by December 6, 2013 and provide its final
opinion by December 20, 2013. However, NMFS never
sent this draft to EPA, because NMFS, FWS and EPA
agreed that more work needed to be done, as EPA was
still considering provisions in the draft Regulation.
NMFS never issued its own opinion, and this document
was never made final.
11. Because the Services preliminarily determined
that the Regulation as then written may be likely to
jeopardize listed species or destroy or adversely modify
critical habitat, the Services also wrote a draft RPA.
Pursuant to ESA Section 7(b)(3)(A), if the Services conclude that an agency action is likely to jeopardize listed
species or destroy or adversely modify critical habitat,
the Services must provide a RPA that would allow the
action to proceed without that result.
Document
0.7.266.44616.1 is one of the drafts of a possible RPA.
Ultimately, based on changes to the Regulation, the Services’ final conclusion, explained in the joint Opinion,
was that the Regulation was not likely to jeopardize the
continued existence of listed species or destroy or
adversely modify their designated critical habitat. In
light of this conclusion, no RPA was required and the
Services did not include any in the Opinion.

38
12. When NMFS sends action agencies draft BOs
that may be controversial, I occasionally review the
draft document prior to its being transmitted. By
providing a draft for transmission to another agency,
NMFS is not rendering a final decision. The document
remains a draft and is subject to change until final signature. The December 6, 2013, NMFS’ draft opinion
at issue here was clearly not final, as NMFS never issued a separate biological opinion, the final joint Opinion
had substantial changes from NMFS’ December 6, 2013
draft and reached an entirely different conclusion (i.e.,
no jeopardy). Moreover, NMFS never sent its December 6, 2013 draft at issue to EPA.
13. Central to this internal and deliberative process
was the ability of all participants to have the candid and
frank discussions that decision-makers must rely on in
order to make sure all viewpoints and options are considered. I asserted the deliberative process privilege
for these documents in the FOIA response and I continue to assert the privilege here because I do not want
these communications to be in anyway discouraged or
chilled for fear of disclosure. In addition, as some of
these documents reflect positions that NMFS did not
adopt, I do not want to create confusion with their
release or to use NMFS’ resources to defend those
rejected positions.
14. Plaintiffs have identified twenty-four documents
for which they challenge the withholding. Three of the
documents—0.7.266.7026, 0.7.266.7055, 0.7.266.7066—
are parts of an email chain. An identical passage in one
of the three documents was unredacted, but redacted in
the other two. I have instructed that the redactions of

39
this passage be removed in these two documents. Document 0.7.266.7026 has no remaining redactions and will
be released to the plaintiffs in full, so is not discussed
below. Document 0.7.266.7066 has remaining redactions, but a version without the inconsistent redactions
will he provided to the plaintiffs. In addition, in the
spirit of cooperation, I have instructed that Document
0.7.266.38030 be released in full. I provide additional detail on the twenty-two remaining documents below.
15. I withhold in full Document Number
0.7.266.44516.1 pursuant to the deliberative process
privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
The document, sent via email by Jennifer Schultz of
NMFS to herself on December 6, 2013, is a draft of the
biological opinion written by NMFS. This early draft,
written more than five months before the Services
issued their joint Opinion, reflects a preliminary analysis of a late 2013 draft of EPA’s Regulation. Because
this draft discusses EPA’s 2013 draft of the Regulation,
the draft reflects EPA’ s deliberative process as well as
that of NMFS.
This preliminary analysis was not
adopted and this draft was never sent to EPA. Ultimately, NMFS abandoned this draft and did not issue
an opinion, instead co-signing the joint Opinion.
Between December 6, 2013 and May 2014 EPA and the
Services communicated frequently, sometimes daily, to
discuss changes to EPA’s Regulation. In their final
joint Opinion, the Services concluded that EPA’s issuance of the Regulation was not likely to jeopardize listed
species or destroy or adversely modify designated critical habitat. This conclusion was based on EPA’s final
Regulation, which differed from EPA’s 2013 draft.
There are no segregable portions for release in this
draft because a biological opinion is not a compilation of

40
data, but rather a detailed sifting and weighing of information to determine whether an action is likely to jeopardize listed species or destroy or adversely modify critical habitat and how to address uncertainty. The discussion of factual material in this document is generally
intertwined with the analysis such that it is not possible
to reveal the factual material without revealing the
agency’s preliminary analysis.
16. I withhold in full Document Number
0.7.266.44616.1 pursuant to the deliberative process
privilege of FOIA exemption (b)(5) (5 U.S.C.
§ 552(b)(5)). This is a draft of a possible RPA sent via
email from Rick Sayers of FWS to Jennifer Schultz of
NMFS on December 17, 2013. Pursuant to the ESA
Section 7(b)(3) (16 USC § 1536(b)(3)), the Services must
provide a RPA, if any, whenever they determine that a
federal agency action is likely to jeopardize listed species
or destroy or adversely modify critical habitat. The
RPA, if implemented, allows the agency action to proceed in compliance with ESA Section 7(a)(2)’s statutory
requirement that Federal agencies must insure that
actions they authorize, fund or carry out are not likely
to jeopardize listed species or to destroy or adversely
modify critical habitat. Because NMFS’ preliminary
analysis of EPA’s draft of the Regulation, as it existed
in 2013, was that it was likely to jeopardize listed species
and destroy or adversely modify critical habitat, the
Services were considering a draft RPA. This draft was
shared between FWS and NMFS and reflects the agencies’ deliberations on options for a possible RPA for
EPA’s 2013 draft of the Regulation. The draft includes
various comments, questions, and tracked changes of
NMFS agency staff, and the analysis is not complete or
final. Because the Services in their final joint Opinion

41
concluded that EPA’s action was not likely to jeopardize
listed species or to destroy or adversely modify designated critical habitat, no RPA was necessary and the
draft RPA was abandoned and never finalized. There
are no segregable portions of this document. Because
the Services include RPAs in biological opinions recommending actions for the action agency to take, factual
material is included to provide the rationale for the recommendations, and it is therefore intertwined with the
analysis documenting that the RPA will avoid likely
jeopardy. Discussion of factual material, to the extent
that it existed, is intertwined with the analysis such that
it is not possible to reveal the factual material without
revealing the agency’s preliminary analysis.
17. I withhold in full document number 0.7.266.5427.1
pursuant to the deliberative process privilege of FOIA
exemption (b)(5) (5 U.S.C. § 552(b)(5)). The document
is a NMFS’ April 7, 2014 draft of the biological opinion,
sent via email on April 7, 2014 from Jennifer Schultz of
NMFS to Bridget Crokus, Colette Cairns and Jordan
Carduner of NMFS, a draft that was not sent to EPA.
Because the Services decided to issue a joint Opinion
and because this draft reflected a version of EPA’s Regulation that differed prior to the issuance of the final
joint Opinion, this draft was abandoned and never finalized. There are no segregable portions for release in
this draft because a biological opinion is not a compilation of data, but rather a preliminary narrative analyses
based on weighing and sifting information and assigning
value, as well as how to deal with uncertainty. Accordingly, the discussion of factual material in this document
is intertwined with the analysis such that it is not possible to reveal the factual material without revealing the

42
agency’s preliminary analysis. Because this preliminary draft was circulated for internal review and comment, the analysis and factual matters presented are not
complete or final and may contain inaccuracies.
18. I withhold in full Document Number
0.7.266.5597.1 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5).
This is a draft document which describes potential possible methods to minimize risk to abalone, provided as a
first draft for comment among NMFS staff and sent via
email on November 4, 2013 from Dan Lawson of NMFS
to Jennifer Schultz of NMFS. These measures were
considered for possible incorporation into the biological
opinion, in a RPA, if NMFS were to conclude that the
Regulation jeopardized listed species, or as possible
T&Cs in an ITS. Ultimately, NMFS did not reach
these conclusions in this manner but still included a
later-refined version of the measures in the Opinion as
Appendix D: Example of Species Specific Control
Measures, Monitoring and Reporting. The draft document is a preliminary narrative analysis that reflects the
agency’s deliberations about what potential species-protective measures should be included in the biological
opinion. The selection of topics and supporting information in the draft reflects the agency’s decision-making process. The preliminary analysis and material
presented are not complete/final and may contain various inaccuracies. There are no segregable portions of
this document. The discussion of factual material in
this document is generally intertwined with the analysis
such that it is not possible to reveal the factual material
without revealing the agency’s preliminary analysis.
Factual material is not merely compiled but is weighed
and evaluated to determine what the proper protective

43
methodology, and therefore is intertwined with the analysis such that revealing it will also reveal the agency’s
preliminary analysis.
19. I withhold in its entirety Document Number
0.7.266.7196.1 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C.
§ 552(b)(5)). The document, sent via email from Shelly
Norton of NMFS to Kris Petersen of NMFS on April 24,
2014, is a draft of a recovery plan for Johnson’s sea
grass, a threatened plant species. The draft recovery
plan, not yet final and not itself the subject of this FOIA
request, is being developed to replace the existing Johnson’s sea grass recovery plan issued in 2002. Ms. Norton provided the draft of the recovery plan to assist Ms.
Petersen in writing Appendix C of the Opinion. The
draft is a preliminary narrative analysis to be considered prior to a separate agency determination for inclusion in the recovery plan mandated by ESA Section 4(f ),
16 USC § 1533(t). There are no segregable portions for
release. The selection of topics and supporting information in the draft reflects the agency’s decision-making process. The discussion of factual material cannot
be revealed without also revealing the agency’s preliminary analysis. The preliminary analysis and material
presented are not complete/final and may contain various
inaccuracies.
20. I withhold in its entirety Document Number
0.7.266.7544.2 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
This document, sent from Jennifer Schultz of NMFS to
Audra Livergood and other NMFS staff members on
August 9, 2013, is a first draft of potential measures to be

44
included in the biological opinion to minimize risk to salmonids. These measures were considered for possible
incorporation into the biological opinion, in a RPA, if
NMFS were to conclude that the Regulation jeopardized listed species, or as possible T&Cs in an ITS.
Ultimately, NMFS did not reach these conclusions in
this manner but still included a later-refined version of
the measures in the Opinion as Appendix D: Example
of Species Specific Control Measures, Monitoring and
Reporting. This first draft was circulated for the purpose of soliciting comments on those measures. The
draft is a preliminary narrative analysis to be considered prior to the agency’s determination of appropriate
measures for inclusion in the biological opinion. There
are no segregable portions of this document for release.
The selection of topics and supporting information in the
draft reflects the agency’s decision-making process.
The discussion of factual material cannot be revealed
without also revealing the agency’s preliminary analysis. The preliminary analysis and material presented
are not complete/final and may contain various inaccuracies.
21. I withhold in its entirety Document Number
0.7.266.7544.3 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
This document, also sent as an attachment to the same
email discussed in the preceding paragraph from Jennifer Schultz of NMFS to Audra Livergood and others
of NMFS on August 9, 2013, is a first draft of potential
measures to include in the biological opinion to minimize
risk to salmonids, larval fish, sea turtles, abalone, and
corals. These measures were considered for possible
incorporation into the biological opinion, in a RPA, if

45
NMFS were to conclude that the Regulation jeopardized listed species, or as possible T&Cs in an ITS.
Ultimately, NMFS did not reach these conclusions in
this manner but still included a later-refined version of
the measures in the Opinion as Appendix D: Example
of Species Specific Control Measures, Monitoring and
Reporting. This first draft was circulated for the purpose of soliciting comments from NMFS staff, and was
not circulated outside of NMFS. The draft is a preliminary narrative analysis to be considered prior to an
agency determination of appropriate measures for inclusion in the biological opinion. The selection of topics
and supporting information in the draft reflects the
agency’s decision-making process. The document also
contains various comments and questions of agency
staff, which reflect the internal deliberations and discussions during the course of reviewing this draft document. There are no segregable portions of this document for release. The discussion of factual material
cannot be revealed without also revealing the agency’s
preliminary analysis. The preliminary analysis and
material presented are not complete/final and may contain various inaccuracies.
22. I withhold in its entirety Document Number
0.7.266.37667 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C.
§ 552(b)(5)). This document is an undated draft document written during development of NMFS’ draft opinion,
describing possible protective measures for consideration in the biological opinion to minimize risk to sea turtles. These measures were considered for possible incorporation into the biological opinion, in a RPA, if NMFS
were to conclude that the Regulation jeopardized listed
species, or as possible T&Cs in an ITS. Ultimately,

46
NMFS did not reach these conclusions in this manner
but still included a later-refined version of the measures
in the Opinion as Appendix D: Example of Species
Specific Control Measures, Monitoring and Reporting.
The draft is a preliminary narrative analysis to be considered prior to an agency determination and consideration in the opinion. The selection of topics and supporting information in the draft reflects the agency’s decision-making process. There are no segregable portions for release in this document. The discussion of
factual material cannot be revealed without also revealing the agency’s preliminary analysis. The preliminary analysis and material presented are not complete/final and may contain various inaccuracies.
23. I withhold in its entirety Document Number
0.7.266.37695 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
The document is an undated draft document, written
during development of NMFS’ draft opinion, describing
possible protective measures for inclusion in the biological opinion to minimize risk for pinnipeds.
These
measures were considered for possible incorporation
into the biological opinion, in a RPA, if NMFS were to
conclude that the Regulation jeopardized listed species,
or as possible T&Cs in an ITS. Ultimately, NMFS did
not reach these conclusions in this manner but still
included a later-refined version of the measures in the
Opinion as Appendix D: Example of Species Specific
Control Measures, Monitoring and Reporting. The
draft is a preliminary narrative analysis to be considered prior to an agency determination and consideration
in the opinion. The selection of topics and supporting
information in the draft reflects the agency’s decisionmaking process. The document also contains various

47
comments and questions of agency staff, which reflect
the internal deliberations and discussions during the
course of reviewing this draft document. There are no
segregable portions for release. The discussion of factual material cannot be revealed without also revealing
the agency’s preliminary analysis. The preliminary analysis and material presented are not complete/final and
may contain various inaccuracies.
24. I withhold in its entirety Document Number
0.7.266.45263.1 pursuant to the deliberative process
privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
The document, sent via email from Jennifer Schultz of
NMFS to David Nichols and others of NMFS on March
19, 2014, describes draft protective measures for inclusion in the biological opinion to minimize risk to sea turtles. These measures were considered for possible incorporation into the biological opinion, in a RPA, if
NMFS were to conclude that the Regulation jeopardized listed species, or as possible T&Cs in an ITS.
Ultimately, NMFS did not reach these conclusions in
this manner but still included a later-refined version of
the measures in the Opinion as Appendix D: Example
of Species Specific Control Measures, Monitoring and
Reporting. The purpose of sending this draft document is to seek comments from NMFS scientists on the
draft protective measures for consideration in the biological opinion. The draft is a preliminary narrative
analysis to be considered prior to an agency determination and consideration in the biological opinion. The
selection of topics and supporting information in the
draft reflects the agency’s decision-making process.
The document also contains various comments and questions of agency staff, which reflect the internal deliberations and discussions during the course of reviewing

48
this draft document. The document does not contain
segregable portions for release. The discussion of factual material cannot be revealed without also revealing the
agency’s preliminary analysis. The preliminary analysis
and material presented are not complete/final and may
contain various inaccuracies.
25. I withhold in its entirety Document Number
0.7.266.45277.2 pursuant to the deliberative process
privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
The document, sent from Patrick Opay of NMFS to Jennifer Schultz of NMFS on March 20, 2014 in response to
an earlier internal email chain among Jennifer Schultz,
David Nichols and Irene Kelly of NMFS, is a draft describing potential protective measures for inclusion in the
biological opinion to minimize risk to sea turtles. These
measures were considered for possible incorporation
into the biological opinion, in a RPA, if NMFS were to
conclude that the Regulation jeopardized listed species,
or as possible T&Cs in an ITS. Ultimately, NMFS did
not reach these conclusions in this manner but still included a later-refined version of the measures in the
Opinion as Appendix D: Example of Species Specific
Control Measures, Monitoring and Reporting. The
draft was circulated to solicit comments from NMFS
staff on these potential measures, and contains comments from NMFS staff written in the margins. The
draft is a preliminary narrative analysis to be considered prior to an agency determination and consideration
for inclusion in the opinion. The selection of topics and
supporting information in the draft reflects the agency’s
decision-making process. The document also contains
various comments and questions of agency staff, which
reflect the internal deliberations and discussions during
the course of reviewing this draft document. There are

49
no segregable portions of this document for release.
The discussion of factual material cannot be revealed
without also revealing the agency’s preliminary analysis. The preliminary analysis and material presented
are not complete/final and may contain various inaccuracies.
26. I withhold in part document number 0.7.266.5143
pursuant to the deliberative process privilege of FOIA
exemption (b)(5) (5 U.S.C. § 552(b)(5)). The document
is an internal email thread from November 11 through
November 14, 2013, among Jennifer Schultz of NMFS
and Rich Domingue of NMFS and Mark Eames of
NOAA’s Office of General Counsel, discussing a separate ongoing consultation being done by staff from the
Northwest Regional Office. While the information
sought was for the purpose of writing the biological
opinion that is the subject of this FOIA, the redacted
portions of the document contain the agency’s deliberations in preparation for developing and writing a separate biological opinion that has yet to be finalized and
that is not the subject of this FOIA request. The redacted portions also contain NMFS headquarters and
regional staff deliberative evaluation of possible options
for implementation of the 2001 Memorandum of Agreement Between the Environmental Protection Agency,
Fish and Wildlife Service and National Marine Fisheries Service Regarding Enhanced Coordination Under
the Clean Water Act and Endangered Species Act
(MOA), 36 FR 11202 (February 22, 2001). Section
IX.A. of the MOA details coordination procedures between EPA and the Services for consideration of ESA
concerns in issuance of state or tribal NPDES permits.
In the preamble in the Federal Register notice announc-

50
ing the final Regulation, in the section titled EPA Oversight of State-Issued NPDES Permits To Protect
Threatened and Endangered Species, EPA cited to and
described these procedures in the MOA and stated that
the MOA applies equally to NPDES permits that contain conditions for cooling water intake structures.
79 FR 48299, 48382-3 (August 15, 2014). The Opinion
described EPA’s oversight role as part of EPA’s action.
Opinion at 12-13. The discussion in this document contains thoughts and questions from agency staff in preparation for writing an early draft of the NMFS’ draft
opinion that was never finalized. This document has been
segregated and non-deliberative or factual material has
been released.
27. I withhold in its entirety Document Number
0.7.266.45161 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
The document is a one-paragraph email sent March 10,
2014 from Jennifer Schultz of NMFS to Angela Somma
and Ron Dean of NMFS and George Noguchi of FWS
discussing implementation of the 2001 MOA, for consideration in developing the biological opinion. This email
reflects the agencies’ internal deliberations during agency
decision-making during development of the Opinion.
The content of the email reveals the agency’s preliminary analysis of potential agency action and topics/
questions to be discussed. No segregation is possible for
this document because all factual and non- deliberative
material is interwoven with the analysis.
28. I withhold in its entirety Document Number
0.7.266.45161.1 pursuant to the deliberative process
privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).

51
The document, sent as an attachment to the email described in the paragraph above, discusses and evaluates
various aspects of the implementation of the 2001 MOA.
In addition to reflecting the agencies’ deliberations in
preparation for the Opinion at issue in this FOIA, the
document also reflects the agencies’ pre-decisional
deliberations on state water quality standards under the
Clean Water Act and individual state NPDES permits
that are not the subject of this FOIA. This is a document consisting of agency staff ’s preliminary analysis,
thoughts, proposals, and recommendations. This document was attached to be discussed during the course of
decision-making by agency staff and was distributed for
comments and review antecedent to agency action on
the issue. The preliminary analysis and material presented are not complete/final and may contain various
inaccuracies. No segregation is possible for this document because all factual and non-deliberative material
is interwoven with the analysis.
29. I withhold in its entirety Document Number
0.7.266.45164 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)) for
the reasons described in the two paragraphs above. The
document is a March 10, 2014 email response from Angela Somma of NMFS to Documents Number
07.266.45161 and 07.266.45161.1. The content of the
email reveals the agency’s preliminary analysis of potential agency action and topics/questions to be discussed.
No segregation is possible for this document because all
factual and non-deliberative material is interwoven with
the analysis.

52
30. I withhold in its entirety Document Number
0.7.266.61721 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
This undated document, written during development of
NMFS’ draft opinion, is a draft table of possible quantified estimates of effects on listed species, based on the
EPA’s draft rule as it existed in 2013, a draft table that
NMFS after further deliberations among its scientists
ultimately determined not to include in the Opinion.
This draft represents the agency’s preliminary analysis
and estimates. This document was generated as part of
the agency’s decision making regarding a biological opinion.
Because the entire document represents draft
views, no segregation is possible.
31. I withhold in its entirety Document Number
0.7.266.14973.1 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
The document, attached to a March 10, 2014 email from
Jennifer Schultz of NMFS to Donna Wieting and Cathy
Tortorici of NMFS, is an example of T&Cs for consideration in developing an ITS for this Opinion, from a draft
biological opinion regarding a separate federal action,
not the subject of this FOIA. At the time the draft was
shared, the separate biological opinion had not been finalized. This document was created during the process
of agency decision-making on the separate federal action, during the development of the biological opinion
that is not the subject of this FOIA, and does not reflect
the final determination of the agency with respect to
that separate biological opinion. This document also
contains comments and highlights which reveal the preliminary analysis of agency staff. The document contains no segregable portions for release. The discussion of factual material cannot be revealed without also

53
revealing the agency’s preliminary analysis. The preliminary analysis and material presented are not
complete/final.
32. I withhold in its entirety Document Number
0.7.266.17987.1 pursuant to the deliberative process
privilege of FOIA exemption (b)(5) (5 U.S.C.
§ 552(b)(5)). This draft document, a duplicate of Document Number 0.7.266.61721, was sent as an attachment
to an email from Jennifer Schultz of NMFS to Donna
Wieting and Cathy Tortorici of NMFS. I withhold it for
the same reasons discussed for Document Number
0.7.266.61721.
33. I withhold in part Document Number
0.7.266.7055 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
This document is an email among Jennifer Schultz,
Steve Thomas and Richard Wantuck of NMFS from
March 12 through March 18, 2014 discussing requirements for fish screen monitoring and reporting as well
as possible control measures for CWIS. This email
chain is internal to NMFS agency staff and reflects the
agency’s deliberations during the course of drafting and
evaluating a possible biological opinion. This discussion
is antecedent to official agency action and consists of comments, questions, and thoughts of agency staff during the
deliberative process. This document has been segregated and non-deliberative material has been released.
34. I withhold in part Document Number
0.7.266.7066 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
This document is an email among Jennifer Schultz, Joe
Dillon, Steve Thomas and other NMFS staff from
March 12 through March 27, 2014, discussing possible

54
requirements for fish screen monitoring and reporting
as well as possible control measures for CWIS. Possible options for the biological opinion are also sought.
The document also contains an excerpt from EPA’s
draft Regulation that reflects EPA’s deliberative process. This email chain is internal to NMFS agency
staff and reflects the agency’s deliberations during the
course of drafting and evaluating a possible biological
opinion as well as including excerpts from an EPA predecisional deliberative draft. This discussion is antecedent to official agency action and consists of comments, questions, and thoughts of agency staff during the
deliberative process. This document has been segregated and non-deliberative material has been released.
35. I withhold in its entirety Document Number
0.7.266.37253 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).
This August 7, 2013 email from Bryan Nordlund of
NMFS to Rich Domingue of NMFS is a NMFS internal
memorandum that discusses the intake screens assessment based on evaluation of one facility, for purposes of
developing the biological opinion for that facility. That
biological opinion, that is not the subject of this FOIA,
has not been finalized.
This document reflects the
agency’s internal preliminary analysis, assessments, and
recommendations during the course of decision-making
for that separate biological opinion. The factual material cannot be revealed without also revealing the
agency’s preliminary analysis and no segregation is possible.
36. I withhold part of Document Number
0.7.266.5038 pursuant to the deliberative process privilege of FOIA exemption (b)(5) (5 U.S.C. § 552(b)(5)).

55
The document is an internal NMFS-only email chain
from August 9, 2013, to August 27, 2013, among Jennifer
Schultz and Colette Cairns, NMFS headquarters staff
with the lead on preparing the biological opinion, and
Ryan Hendren, a NMFS biologist in NMFS Southeast
Regional Office in St. Petersburg, Florida. This email
was generated early in the preparation of the biological
opinion and for the purpose of writing and evaluating
possible options for the biological opinion. The redacted portions contain the agency’s deliberations in
discussions and comments on issues related to EPA’s
delegation of authority to states and possible methods
to minimize adverse effects to federally-listed species.
This discussion is antecedent to official agency action and
consists of comments, questions, and thoughts of agency
staff during the deliberative process. This document
has been segregated and non-deliberative material has
been released.
I declare under penalty of perjury under the laws of
the United States of America that the foregoing is true
and correct. Executed this [10] day of Feb. 2017.
/s/

SAMUEL D. RAUCH, III
SAMUEL D. RAUCH, III
Acting Assistant Administrator, NMFS

56
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA
SAN FRANCISCO DIVISION

Case No. 15-cv-05872 EDL
SIERRA CLUB, INC., PLAINTIFF
v.
NATIONAL MARINE FISHERIES SERVICE AND UNITED
STATES FISH AND WILDLIFE SERVICE, DEFENDANTS
DECLARATION OF GARY FRAZER

I, Gary Frazer, hereby declare as follows:
1. I am the Assistant Director for Ecological Services of the U.S. Fish and Wildlife Service (“FWS”), an
agency of the U.S. Department of the Interior (“DOI”),
located in Washington, D.C. In my capacity as Assistant Director, I am responsible to the Director of the
FWS and the Secretary of the Interior for the administration of the Endangered Species Act (“ESA” or
“Act”), 16 U.S.C. §§ 1531-1544, which includes oversight
and management of national programmatic consultations on Federal agency actions that are conducted by
my Ecological Services’ program staff at FWS’s Headquarters Office.
2. I make this declaration based upon my personal
knowledge and information available to me in my capacity as the Assistant Director for Ecological Services of
FWS.
3. On May 19, 2014, Paul Souza, Deputy Assistant
Director for Ecological Services at the time, signed, in

57
my capacity, the FWS and National Marine Fisheries
Service’s (“NMFS”) joint biological opinion on the U.S.
Environmental Protection Agency’s (“EPA”) issuance
and implementation of the final regulations implementing
section 316(b) of the Clean Water Act. In the joint biological opinion, the FWS and NMFS (collectively, the
“Services”) concluded that EPA’s promulgation of the
regulations is not likely to jeopardize the continued
existence of ESA-listed species and is not likely to destroy or adversely modify designated critical habitat.
In reaching this conclusion regarding EPA’s compliance
under section 7(a)(2) of the ESA, the Ecological Services
Program staff at FWS Headquarters conducted a programmatic consultation on the 316(b) final rule, focusing
primarily on required elements of the regulatory process set forth in the rule and on EPA’s commitment to
oversee implementation of the rule.
4. Before the joint biological opinion was issued,
the Services engaged in an intensive consultation process with EPA involving not only scientific issues
regarding the effects of EPA’s action, but issues of legal
and policy relevance regarding EPA’s authority and discretion and the FWS’s consideration of such in the consultation. In fact, given the agency action being analyzed was a rulemaking to implement a permitting program carried out by EPA or States approved by EPA
under the National Pollutant Discharge Elimination
System, this programmatic biological opinion was necessarily laden with significant policy and legal considerations under both the ESA and the Clean Water Act,
even more so than what may be expected in a traditional,
site-specific consultation.

58
5. In the nearly two years leading up to the issuance of the opinion, agency personnel met routinely,
both in person and over the phone, and exchanged thousands of emails. The Services, along with EPA, participated in frank discussions over this period, and multiple
options for EPA’s regulation and the biological opinion
were considered and reconsidered, with many rejected.
Multiple pre-decisional drafts of the biological opinion,
portions of the biological opinion, as well as briefing and
options papers were circulated intra- and interagency.
Multiple comments and suggestions were exchanged,
often by several people on the same document, and
sometimes those comments and suggestions conflicted.
Documents were revised on the author’s own initiative
or in response to comments and recirculated.
6. The Services generated many pre-decisional
drafts of the biological opinion, most not changing significantly between these versions. Included among the
pre-decisional drafts of the biological opinion identified
in Exhibit A, attached hereto, are drafts from December
6, 2013 and December 9, 2013, in which the FWS concluded that the EPA’s regulation in its thencurrent-form was likely to jeopardize listed species and
adversely modify critical habitat. These pre-decisional
draft biological opinions were subject to internal review
within FWS and the Department of the Interior and
consultation with the EPA. Based upon this internal
review and interagency review in December, the FWS
concluded that additional consultation was needed to
better understand and consider the operation of key
elements of EPA’s rule, the elements of which were still
being deliberated within EPA as well.
Therefore,
these December 6 and December 9 draft opinions were
never signed by me and distributed to EPA as the

59
agency’s official preliminary position.
In fact, the
FWS, NMFS, and the EPA all agreed, that more work
needed to be done and agreed to extend the time frame
for the consultation. Because the Services preliminarily believed that the regulation, as then written, may be
likely to jeopardize listed species or destroy or
adversely modify critical habitat, the Services also
wrote draft RPAs as required by ESA Section 7. Ultimately, based on changes to the regulation, the Services’
final conclusion was that the regulation was not likely to
jeopardize the continued existence of listed species nor
likely to destroy or adversely modify critical habitat.
Thus, no RPAs were required, and the Services did not
include any in the final biological opinion.
7. I am personally familiar with this consultation
and the legal and policy issues that were considered by
the FWS Headquarters Ecological Services Program
staff in rendering its biological opinion. I was involved in
the decision-making process at FWS Headquarters, participating in internal discussions with mid-level managers in the Ecological Services Program Office, which included Rick Sayers, Chief of the Division of Environmental Review, and Patrice Ashfield, Chief of the
Branch of Consultation and Habitat Conservation Planning, as well as the staff biologist who served as FWS’s
primary author of the biological opinion, Drew Crane.
I also participated in interagency discussions among
FWS staff and agency officials at DOI, the DOI’s Office
of the Solicitor, NMFS, NOAA’s General Counsel’s
Office, EPA, EPA’s Office of General Counsel, the Office
of Management and Budget, and the United States
Department of Justice.

60
Sierra Club’s FOIA Request

8. On August 11, 2014, Sierra Club, Inc. (the
“Plaintiff”), submitted a FOIA request to FWS. Specifically this request sought:
“(1) All FWS drafts of all or portions of the Endangered Species Act (ESA) Section 7 Consultation Programmatic Biological Opinion on the U.S. Environmental Protection Agency’s Issuance and Implementation of the Final Regulations Section 316(b) of the
Clean Water Act (the “BiOp”), Incidental Take Statement and its appendices;
(2) All documents exchanged between FWS staff
and between FWS and the Environmental Protection
Agency (EPA), or any other governmental agency or
official, during interagency review of, and concerning, drafts of the BiOp and/or Incidental Take Statement;
(3) All documents between FWS staff and between
FWS and EPA, or any other governmental agency or
official, concerning the ESA section 7 consultation on
EPA’s most recent 316(b) rule;
(4) All documents serving as the basis for, or which
were considered by, the FWS in connection with its
“no jeopardy” and/or “no adverse modification” of
critical habitat findings on the ESA section 7 consultation for the most recently proposed 316(b) rule;
(5) All documents between FWS staff and between
FWS and EPA, or any other governmental agency or
official, concerning any ESA section 7 consultation on
EPA’s previously proposed 316(b) rule(s), including
for new sources as well as existing sources; and

61
(6) All documents exchanged and all documents related to any meetings, telephone conversations,
emails, or any other communications between FWS
and the utility (i.e., electric generation) industry or
manufacturing industry, representatives of the utility or manufacturing industries, trade groups, special
interest groups, and/or other non-governmental parties relating to the ESA section 7 consultation and
the 316(b) rule,”
9. Accordingly, FWS conducted a broad search in
locating the documents that were potentially responsive
to the FOIA request. FWS’s search for documents responsive to the FOIA request involved extensive queries
of FWS staff who worked on the consultation, as well as
a search of the electronic files of staff, including those
who worked on the project, but were no longer with
FWS.
10. Through this extensive search, FWS ultimately
located 2,194 documents that were responsive to Sierra
Club’s FOIA request. FWS provided interim responses
to the FOIA request on March 10, March 26, June 22,
August 14, October 19, October 30, November 23, December 1, and December 24, 2015; and January 8, 2016.
In sum, FWS’s complete response to the FOIA request
consisted of 624 documents released in full and that
were not privileged, 347 documents released with redactions of privileged and non-responsive text, 1,075 documents withheld in full as privileged, while 148 documents were referred to NOAA and EPA for release
determination as those records originated from those
agencies.

62
FWS’s Privilege Log
11. In the Second Circuit Court of Appeals, the
FWS, along with other defendants, is a party to litigation related to the biological opinion in Cooling Water
Intake Structure Coalition, et. al., v. United States Environmental Protection Agency, et. al., Case No. 144645(L) (2nd Cir. 2016) (the “Second Circuit Action”).
The Plaintiff in this present case before this Court, Sierra Club, is also a plaintiff in the Second Circuit Action.
12. As a part of the Second Circuit Action, on July
13, 2015, FWS filed an administrative record for FWS’s
biological opinion. This administrative record was created by FWS staff, and the DOI Office of the Solicitor
reviewed, again, the documents responsive to Sierra
Club’s broad FOIA request.
13. On February 24, 2016, the Second Circuit motions panel partially granted a Motion to Compel, ordering FWS (along with other Federal Agencies), to produce a privilege log. In response to the Second Circuit’s order, on April 20, 2016, FWS filed a privilege log
in the Second Circuit Action, which I reviewed and also
signed a supporting declaration.
The Assertion of the FOIA’s Deliberative
Process Privilege

14. FWS and the Plaintiff have used the privilege
log in the Second Circuit Action as a basis to identify
documents which are the subject of this briefing. FWS
provided additional detail on many documents that the
Plaintiff identified as potentially responsive.
In
return, Plaintiff narrowed the list of documents subject
to this briefing. Ultimately, following further conversations, the Plaintiffs narrowed the list of documents

63
sought from FWS to five, numbered 243, 252, 279, 308
and 555 in the privilege log in the Second Circuit Action,
along with “any other portions of the draft biological
opinion that were delivered to EPA during the consultation process” (collectively the “Narrowed Documents”
and each a “Narrowed Document”). The Narrowed
Documents are the basis for the FWS’s Vaughn Index,
attached hereto as Exhibit A.
15. In asserting the deliberative process privilege
with respect to the Narrowed Documents, FWS sought
to limit its claim of privilege to those documents that are
deliberative, the release of which would harm the important government interest in the quality of administrative decision-making on a consultation of nationwide
significance. The documents withheld under the deliberative process privilege involve candid discussions
among staff at FWS and NMFS, and are reflective or
pre-decisional opinions of EPA staff.
16. The documents withheld as subject to the deliberative process privilege are all pre-decisional working
drafts of the biological opinion (or sections of drafts) that
may also include redlined comments from various biologists and staff members.
17. If the candid views of staff contained in the Narrowed Documents were disclosed, the quality of future
internal deliberations on resource issues would suffer.
The working drafts of the biological opinion and the
rulemaking contain comments from personnel on legal
or policy matters related to a complex consultation of national significance. In my view, FWS personnel may hesitate to provide their frank and forthright opinions and
recommendations on these draft documents based on
fears that candid recommendations would be broadcast

64
outside the executive branch and misunderstood outside
of context. I believe that this material, if disclosed,
would significantly and adversely impair the integrity
and quality of the decision making process for future
FWS consultations.
18. These documents are an essential part of the deliberative process in that the authors of the documents
make recommendations or express opinions on legal or
policy matters related to the consultation. They include
candid internal discussions relating to various options
deliberated among the Ecological Services Program’s
staff and mid-level managers for the consultation. They
include recommendations from Program staff members
and lower level managers to individuals with decisionmaking authority. The Vaughn Index consists of documents containing legal or policy recommendations and
opinions developed by Program staff and mid-level managers with respect to the consultation and implementation of the regulatory processes set forth in the 316(b)
rulemaking.
19. In determining which documents were potentially subject to the deliberative process privilege, FWS
has applied the following principles: (1) the privilege
protects from disclosure only those documents that reflect advisory opinions, recommendations, and deliberations comprising part of a process by which government
decisions are made or policies are formulated; (2) withheld material must be opinion, deliberation, advice, recommendation, or evaluation by those responsible for advising on the advantages and disadvantages of proposed
agency decision or policy; (3) withheld material must be
directed toward formulation of a policy or decision being
debated within the agency at the time; and (4) withheld

65
material must be pre-decisional, must contain advice or
recommendations, and must not merely comment upon
already established policy. To the extent that any factual or non-privileged material is being withheld, I
believe that it is so intertwined with privileged information that the factual information cannot be released
without releasing privileged information as well. To
the best of my knowledge, such factual information generally is available from other documents which were included in the administrative record of the Second Circuit Action or in unredacted portions of documents subject to the FOIA.
20. I have determined that, to the best of my knowledge, the documents identified in the Vaughn Index as
subject to the deliberative process privilege should be
protected from release by this privilege. By this declaration, therefore, I formally claim the deliberative process privilege for all documents so identified in FWS’s
Vaughn Index.
The Narrowed Documents

21. Given the Plaintiffs’ reduction in the number of
the documents at issue for the purposes of this litigation,
I will address each Narrowed Document below, but the
reasoning above is incorporated herein by reference.
22. Document 243 is a full draft biological opinion
shared between two FWS employees, Drew Crane and
Rick Sayers, which incorporates edits made by myself.
This revised draft was predecisional and includes edits
in track changes throughout the document. It is my
opinion that this document is an essential part of the deliberative process in that the authors of the document
make recommendations or express opinions on legal or
policy matters related to the consultation. It reflects

66
candid internal discussions relating to various options
deliberated among the Ecological Services Program’s
staff and mid-level managers for the consultation.
This includes recommendations from Program staff
members and lower level managers to individuals with
decision-making authority.
23. Document 243 does not contain sections that are
segregable. The draft opinion is not a compilation of
data, but is a preliminary narrative analysis regarding
the subject matter of the opinion that was ultimately issued. Even the parts of the document which do not directly include track changes or notations could be used
to shed light on FWS’s thinking and discussions at the
time the document was drafted. The preliminary conclusions and preliminary inputs discussed in the documents reflect only the preliminary thinking of the FWS
at the time of the draft, and changed significantly by the
end of the process. The discussion of factual material
in the document is generally intertwined with the analysis such that it is not possible to reveal any factual
material without revealing the Services’ preliminary
analysis and assumptions. Because this is an early
draft circulated for internal review and comment, the
analysis and factual matters presented are not final and
may contain inaccuracies.
24. Document 252 is a full draft biological opinion
shared between two FWS employees, Drew Crane and
myself, which incorporates previous edits made by the
FWS team. This revised draft was predecisional. It
is my opinion that this document is an essential part of
the deliberative process in that the authors of the document make recommendations or express opinions on
legal or policy matters related to the consultation. It

67
reflects candid internal discussions relating to various
options deliberated among the Ecological Services Program’s staff and mid-level managers for the consultation. This includes recommendations from Program
staff members and lower level managers to individuals
with decision-making authority.
25. Document 252 does not contain sections that are
segregable. The draft opinion is not a compilation of
data, but is a preliminary narrative analysis regarding
the subject matter of the opinion that was ultimately issued. Even the parts of the document which do not directly reference the RPAs could be used to shed light on
FWS’s thinking and discussions at the time the document was drafted. The preliminary conclusions and
preliminary inputs discussed in the documents reflect
only the preliminary thinking of the FWS at the time of
the draft, and changed significantly by the end of the
process. The discussion of factual material in the document is generally intertwined with the analysis such
that it is not possible to reveal any factual material without revealing the Services’ preliminary analysis and
assumptions. Because this is an early draft circulated
for internal review and comment, the analysis and factual matters presented are not final and may contain
inaccuracies.
26. Document 279 is a portion of the biological opinion known as a reasonable and prudent alternative section
shared between one FWS employee, Drew Crane, and one
employee of NMFS, Jennifer Schultz, which incorporates previous edits made by the FWS team. This
revised draft was predecisional. It is my opinion that
this document is an essential part of the deliberative

68
process in that the authors of the document make recommendations or express opinions on legal or policy
matters related to the consultation. It reflects candid
internal discussions relating to various options deliberated among the Ecological Services Program’s staff and
mid-level managers for the consultation. This includes
recommendations from Program staff members and lower
level managers to individuals with decision-making
authority.
27. Document 279 does not contain sections that are
segregable. It is a brief section of the biological opinion which was fully excised from the final and public
biological opinion. There is no way to release the document without undermining the deliberative process
between members of the FWS internally, as well as
between staff of FWS, NMFS, and EPA.
28. Document 308 is a portion of the biological opinion, known as a reasonable and prudent alternative section, that was shared between Rick Sayers, Patrice Ashfield, and Drew Crane of FWS with NMFS, and also incorporates previous edits made by the FWS team.
This revised draft was predecisional. It is my opinion
that this document is an essential part of the deliberative process in that the authors of the document make
recommendations or express opinions on legal or policy
matters related to the consultation. It reflects candid
internal discussions relating to various options deliberated among the Ecological Services Program’s staff and
mid-level managers for the consultation. This includes
recommendations from Program staff members and
lower level managers to individuals with decision-making authority.

69
29. Document 308 does not contain sections that are
segregable. It is a brief section of the biological opinion which was fully excised from the final and public
biological opinion. There is no way to release the document without undermining the deliberative process
between members of the FWS internally, as well as
between FWS, NFMS, and EPA.
30. Document 555 is a portion of the biological opinion, known as a reasonable and prudent alternative section and shared between FWS and NMFS and also incorporates previous edits made by the FWS team.
This revised draft was predecisional. It is my opinion
that this document is an essential part of the deliberative process in that the authors of the document make
recommendations or express opinions on legal or policy
matters related to the consultation. It reflects candid
internal discussions relating to various options deliberated among the Ecological Services Program’s staff and
mid-level managers for the consultation. This includes
recommendations from Program staff members and
lower-level managers to individuals with decision-making
authority.
31. Document 555 does not contain sections that are
segregable. It is a brief section of the biological opinion which was fully excised from the final and public
biological opinion. There is no way to release the document without undermining the deliberative process
between members of the FWS internally, as well as
between FWS, NMFS, and EPA.
This declaration is made under the provision of Section
1746 of Title 28 of the United States Civil Code. I declare under penalty of perjury that the foregoing is true

70
and correct to the best of my knowledge.
Feb. [10], 2016 in Washington, D.C.
/s/

GARY FRAZER
GARY FRAZER

Executed on

71

EXHIBIT A

72

73
UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF CALIFORNIA

Case No. 15-cv-05872-EDL
SIERRA CLUB, INC., PLAINTIFF
v.
NATIONAL MARINE FISHERIES SERVICE AND UNITED
STATES FISH AND WILDLIFE SERVICE, DEFENDANT
Mar. 22, 2015
AMENDED COMPLAINT FOR DECLARATORY
AND INJUNCTIVE RELIEF

(Freedom of Information Act, 5 U.S.C. § 552 et seq.)
SIERRA CLUB, INC. (hereinafter “Sierra Club”),
by and through its undersigned counsel, hereby alleges:
I. NATURE OF THE CASE

1. Plaintiff asserts violations of the Freedom of Information Act (“FOIA”), 5 U.S.C. § 552, by Defendants
National Marine Fisheries Service (“NMFS”), a federal
agency situated within the United States Department of
Commerce, and Fish and Wildlife Service (“FWS”), a
federal agency situated within the Department of the
Interior (collectively “Defendants”). Defendants have
failed to produce records that Sierra Club sought in two
FOIA requests on August 11, 2014.
2. Sierra Club’s FOIA requests concern a formal
consultation (hereinafter, the “ESA Consultation”) undertaken by NMFS and FWS under the Endangered

74
Species Act (“ESA”) with respect to regulations promulgated by the U.S. Environmental Protection Agency
(“EPA”) under Section 316(b) of the Clean Water Act
(hereinafter, the “316(b) Rule”). Section 316(b) requires
regulatory standards to minimize the adverse environmental impacts on fish and wildlife caused by cooling
water intake structures at existing power plants and
other industrial facilities.
3. Industrial cooling water systems are, by far, the
largest source of water withdrawals in the United
States, drawing trillions of gallons per year from America’s rivers, lakes, and oceans. The enormous volume
and force of these water withdrawals kills and injures
billions of fish and other aquatic organisms each year,
including many federally-listed threatened and endangered species, and damages the broader ecosystem.
4. More than 16 months after receiving the FOIA
request, and long past FOIA’s statutory deadline,
NMFS has still not completed its production of responsive documents. NMFS has repeatedly unilaterally
extended its estimated date of completion. Further,
NMFS’s interim productions have withheld records that
Sierra Club contends it is entitled to under FOIA.
5. On January 8, 2016, FWS completed its response
to Sierra Club’s FOIA request. FWS partially denied
Sierra Club’s FOIA request by redacting and withholding responsive documents. Sierra Club timely filed an
administrative appeal of the partial denial of its FOIA
request. However, FWS missed the statutory deadline
for responding to Sierra Club’s appeal.
6. As a result of Defendants’ failures, Sierra Club
is being deprived of critical information regarding the
government’s development of the 316(b) Rule and the

75
measures for protecting threatened and endangered
species from intake structures.
II.

JURISDICTION, VENUE, AND INTRADISTRICT
ASSIGNMENT

7. This Court has jurisdiction “to enjoin the agency
from withholding agency records and to order the production of any agency records improperly withheld from
the complainant.” 5 U.S.C. § 552(a)(4)(B).
8. Venue is proper in this District because Plaintiff ’s principal places of business are located in this District. 5 U.S.C. § 552(a)(4)(B).
9. Pursuant to Civil Local Rule 3-2(c), assignment
to the San Francisco Division is appropriate because
Plaintiff Sierra Club is incorporated in California and
resides and maintains its headquarters in San Francisco
County.
III. PARTIES

10. Plaintiff Sierra Club was founded in 1892 and is
the nation’s oldest grass-roots environmental organization. The Sierra Club is a national nonprofit organization that is incorporated in California and has its headquarters in San Francisco, California. It has more than
one million members and supporters, including thousands
of members in California. The Sierra Club is dedicated
to the protection and preservation of the natural and human environment, including protecting threatened and
endangered species and their habitat.
The Sierra
Club’s purpose is to explore, enjoy and protect the wild
places of the earth; to practice and promote the responsible use of the earth’s ecosystem and resources; and to
educate and enlist humanity to protect and restore the
quality of the natural and human environments.

76
11. Defendant National Marine Fisheries Service,
also known as “NOAA Fisheries” is a federal agency
within the National Oceanic and Atmospheric Administration within the United States Department of Commerce, which is subject to the requirements of FOIA
and has possession or control of records that Plaintiff
seeks in this action.
12. Defendant United States Fish and Wildlife Service is a federal agency within the Department of the
Interior, which is subject to the requirements of FOIA
and has possession or control of records that plaintiff
seeks in this action.
IV. STATUTORY
GROUND

AND

REGULATORY

BACK-

13. “The basic purpose of FOIA is to ensure an informed citizenry, vital to the functioning of a democratic
society, needed to check against corruption and to hold
the governors accountable to the governed.” NRLB v.
Robbins Tire & Rubber Co., 437 U.S. 214, 242 (1978).
In other words, as the Supreme Court has declared,
“FOIA is often explained as a means for citizens to know
what the Government is up to.” Nat’l Archive & Records Admin. v. Favish, 541 U.S. 157, 171 (2004) (internal
quotations and citations omitted).
14. In particular, FOIA requires agencies of the federal government to release, upon request, information
to the public, unless one of nine specific statutory exemptions applies. 5 U.S.C. § 552(a)(3)(A). These exemptions are narrowly construed, and the agency bears
the burden of establishing the applicability of each exemption as to each document for which it is claimed.

77
15. Upon receiving a FOIA request, an agency has
twenty business days to respond by determining
whether responsive documents exist and whether the
agency will release them. 5 U.S.C. § 552(a)(6)(A).
16. FOIA allows an agency to delay an initial response for ten business days—but only ten business
days—past the statutory deadline, if the agency can
demonstrate that it faces “unusual circumstances” in responding to the request.
5 U.S.C. § 552(a)(6)(B).
“Unusual circumstances” include the need to search for
and collect requested documents from other offices, the
need to appropriately examine a voluminous amount of
separate and distinct records, and the need to consult
with another agency. 5 U.S.C. § 552(a)(6)(B)(iii)(I-III).
Even under “unusual circumstances,” however, an agency
must provide notice of the delay and also provide “the
date on which a determination is expected to be dispatched.” 5 U.S.C. § 552(a)(6)(B)(i).
17. The agency must provide information about the
status of the request including “an estimated date on
which the agency will complete action on the request.”
5 U.S.C. § 552(a)(7)(B)(ii). This date and other information about the status of the request must be available
through a telephonic line or internet service established
by the agency. Id.
18. When an agency denies, in whole or in part, a request for records under FOIA, the agency must make a
“reasonable effort to estimate the volume of any requested matter the provision of which is denied, and
shall provide any such estimate to the person making
the request.” 5 U.S.C. § 552(a)(6)(F).
19. When an agency denies, in whole or in part, a request for records under FOIA, the agency must inform

78
the requesting party of the right “to appeal to the head
of the agency any adverse determination.” 5 U.S.C.
§ 552(a)(6)(A)(i). The agency must make a determination with respect to any appeal within twenty business
days (excluding holidays). 5 U.S.C. § 552(a)(6)(A)(ii).
20. FOIA expressly provides that a requester “shall
be deemed to have exhausted his administrative remedies . . . if the agency fails to comply with the applicable
time limit provisions” governing its response to a FOIA
request or an appeal. 5 U.S.C. § 552(a)(6)(C).
V.

STATEMENT OF FACTS
A.

Cooling Water Intake Structures Kill Billions of
Fish Every Year.

21. Power plants and other industrial facilities use
cooling water intake structures to withdraw massive volumes of water for cooling. Collectively, the nation’s
industrial cooling systems withdraw more water than is
used for municipal water supplies and irrigated agriculture combined.
22. The largest plants in the country can draw
enough water from a river to fill an Olympic swimming
pool in less than 30 seconds. It is no wonder, then, that
every year, hundreds of billions of juvenile fish, larvae,
eggs and other aquatic organisms — including the
young of many threatened and endangered species —
are trapped and killed by the incredibly powerful pumps
at such facilities.
23. The withdrawal of cooling from natural water
bodies causes multiple types of undesirable adverse environmental impacts, including but not limited to

79
entrainment 1 and impingement; 2 reductions of threatened, endangered or other protected species; damage to
critical aquatic organisms, including important elements of the food chain; diminishment of fish population’s compensatory reserve; losses to populations including reductions of indigenous species populations
and commercial and recreational fishery stocks; and
stresses to overall communities and ecosystems.
24. By EPA’s highly conservative estimates, industrial cooling water withdrawals annually result in the
death of at least 2.2 billion age one-equivalent fish,
crabs, and shrimp, and a minimum of 528 billion eggs
and larvae that serve as the basis of the aquatic food
chain. In many cases, the toll on fisheries by power
plants rivals or exceeds that of the fishing industry.
These withdrawals also destroy individuals from at least
266 federally-listed threatened and endangered species,
and adversely impact the designated critical habitat of
certain protected species.
25. “The environmental impact of these systems is
staggering: A single power plant might impinge a million adult fish in just a three-week period, or entrain
some 3 to 4 billion smaller fish and shellfish in a year,
destabilizing wildlife populations in the surrounding
Entrainment refers to the extracting of fish eggs and larvae and
other small organisms from a source waterbody into and through a
power plant’s cooling system, where they are killed or injured by
thermal, physical and chemical shocks.
2
Impingement refers to the trapping of adult and juvenile fish and
other large aquatic organisms, including sea turtles and marine
mammals, on the screens of an intake structure, which can kill or
injure those animals through asphyxiation, descaling and other
harms.
1

80
ecosystem.” Riverkeeper, Inc. v. U.S. EPA, 358 F.3d
174, 181 (2d Cir. 2004).
B.

EPA’s Regulations and the Endangered Species
Act Consultation.

26. In the Clean Water Act of 1972, Congress
ordered EPA to minimize the devastating environmental impacts that cooling water intake structures have on
America’s waters by setting nationally uniform and
binding regulations.
See CWA Section 316(b);
33 U.S.C. § 1326(b).
27. In 2001, 2004 and 2006 EPA promulgated Section 316(b) regulations that were challenged and upheld
in part and remanded in part. See Riverkeeper, Inc. v.
U.S. EPA, 358 F.3d 174 (2d Cir. 2004) (“Riverkeeper I”);
Riverkeeper, Inc. v. U.S. EPA, 475 F.3d 83 (2d Cir. 2007)
(“Riverkeeper”); ConocoPhillips Co. v. EPA, 612 F.3d
822 (5th Cir. 2010).
28. In 2007, EPA suspended the regulations that
were remanded in large part by the Second Circuit in
Riverkeeper II. 72 Fed. Reg. 37,107, 37,108 (July 9,
2007).
29. On remand from the circuit courts, in 2011, EPA
proposed new Section 316(b) regulations for existing
facilities and revised its regulations for new facilities.
30. On June 18, 2013, EPA initiated the formal ESA
Consultation with NMFS and the FWS following comments by environmental groups, including Sierra Club,
that EPA must undertake such consultation.
31. The ESA Consultation concluded approximately
eleven months later, on May 19, 2014, with the Services’
release of a programmatic biological opinion on EPA’s

81
issuance and implementation of the 316(b) Rule (“Biological Opinion”).
32. On May 19, 2014, the EPA Administrator signed
the final 316(b) Rule, entitled National Pollutant Discharge Elimination System—Final Regulations to
Establish Requirements for Cooling Water Intake
Structures at Existing Facilities and Amend Requirements at Phase I Facilities (EPA-HQ- OW-2008-0667).
33. EPA published the 316(b) Rule in the Federal
Register on August 15, 2014.
C.

The FOIA Request.

34. On August 11, 2014, Sierra Club submitted
FOIA requests to Defendants asking that they make
available for inspection and copying eight categories of
records relating to the 316(b) Rule, Biological Opinion
and ESA Consultation. See Exhibits A & B.
D.

NMFS’s Response.

35. NMFS’s response to Sierra Club’s request has
been wholly inadequate.
36. On August 13, 2014, NMFS mailed an initial response acknowledging receipt of Sierra Club’s August
11, 2014, request and assigned that request a tracking
number, FOIA# DOC-NOAA-2014-001474. See Exhibit C
37. On August 27, 2014, counsel for the parties conferred regarding the scope of the request.
38. On September 8, 2014, Sierra Club agreed to
narrow the scope of the request to exclude records containing routine administrative matters and personally
identifiable information. See Exhibit D.

82
39. On September 25, 2014, Sierra Club received an
email from NMFS estimating that the “earliest [NMFS]
can provide a response is November 21[, 2014].” See
Exhibit E.
40. Having received no records from NMFS, on
December 3, 2014, Sierra Club requested a status
update from NMFS.
41. On December 11, 2014, NMFS responded that it
was not able to provide an estimated date of completion,
but “anticipate[d] being able to provide a date certain
for providing our response” by the end of January 2015.
See Exhibit F.
42. After January 2015 passed with no information
from NMFS, on February 24, 2015, Sierra Club
requested a status update from NMFS, followed by
another request for a status update on March 4, 2015.
43. On March 3, 2015, more than six months after
Sierra Club submitted its FOIA request, NMFS released the first production of responsive records, which
was composed of only five documents totaling 51 pages.
44. On March 4, 2015, after a telephone conversation
between the parties, counsel for NMFS sent Sierra Club
an email stating that “review of the documents responsive to the FOIA request will occur in conjunction with
the preparation of the administrative record in the
pending litigation. . . . We anticipate being able to
provide a final response approximately one month after
the filing of the administrative record [in Cooling Water
Intake Structure v. U.S. Environmental Protection
Agency, U.S. Court of Appeals for the Second Circuit,
No. 14-4645 and consolidated cases].” See Exhibit G.
Sierra Club and NMFS are parties to the referenced

83
Cooling Water Intake Structure v. EPA case in the Second Circuit. The administrative record in that case
was due on July 13, 2015 (and, indeed, was filed on that
date). Thus, the anticipated date of completion in
NMFS’s March 4, 2015, email was August 13, 2015.
45. In July 2015, NMFS informed Sierra Club that
it would not complete its response to the FOIA request
by August 13, 2015, and that the new estimated completion date for the FOIA request would be October 30,
2015.
46. On or about August 3, 2015, Sierra Club received
a second partial production from NMFS consisting of
353 documents. See Exhibit H.
47. On or about September 10, 2015, Sierra Club
received a third partial production from NMFS consisting of 73 documents. See Exhibit I.
48. On September 29, 2015, NMFS notified Sierra
Club that it would be unable to complete its response to
the FOIA request by October 30, 2015, and anticipated
providing a final release of documents by January 31,
2016. See Exhibit J.
49. On November 2, 2015, Sierra Club received a
fourth partial production consisting of 268 emails and
attachments. In its November 2nd response, NMFS
redacted 75 documents and withheld 688 documents.
See Exhibit K.
50. On or about November 13, 2015, Sierra Club
submitted an administrative appeal to NMFS concerning NMFS’s excessive and undue delay in complying
with FOIA as well as NMFS’s misuse of the deliberative
process privilege to withhold responsive records. See
Exhibit L.

84
51. The statutory deadline for responding to Sierra
Club’s appeal was December 14, 2015, See 5 U.S.C.
§ 552(a)(6)(A)(ii) (20 business days). NMFS did not
timely respond to the appeal.
52. On or about December 11, 2015, Sierra Club
received a fifth partial production consisting of 268
emails and attachments. In its December 11th response, NMFS partially redacted 269 documents, fully
redacted 212 documents, and withheld 392 documents.
See Exhibit M.
53. More than sixteen months has now passed since
NMFS received Sierra Club’s FOIA request, NMFS has
repeatedly extended the date by which it would complete production of documents responsive to the
request, has not completed its production, and has unlawfully redacted and withheld responsive documents.
E.

FWS’s Response.

54. FWS’s response to Sierra Club’s request has
been legally inadequate.
55. On or about January 8, 2016, after four interim
releases of documents, FWS completed its response to
the FOIA request. Over the course of these productions, FWS produced some documents, but partially
denied Sierra Club’s FOIA request by redacting 346
emails and withholding attachments.
56. On or about January 8, 2016, FWS informed Sierra Club that it had 30 business days (i.e., until February 19, 2016) to appeal the agency’s response. See
Exhibit N. On February 16, 2016, Sierra Club timely
appealed FWS’s response to its FOIA request. See
Exhibit O

85
57. The statutory deadline for responding to Sierra
Club’s appeal was March 15, 2016.
See 5 U.S.C.
§ 552(a)(6)(A)(ii) (20 business days). FWS did not
timely respond to the appeal.
VI. CLAIMS FOR RELIEF
FIRST CAUSE OF ACTION
Failure to properly and timely comply with
FOIA requirements
(Violation of FOIA, 5 U.S.C. §§ 552)

58. Plaintiff realleges and incorporates the allegations of all the preceding paragraphs of this Complaint
as if fully set forth herein.
59. By failing to properly and timely respond to
Sierra Club’s August 11, 2014 FOIA request and provide
all records responsive thereto, NMFS has violated
FOIA’s mandate to release agency records to the public.
See 5 U.S.C. §§ 552(a)(3)(A) and (a)(6).
60. By failing to timely make a determination with
respect to Sierra Club’s February 16, 2016 appeal, FWS
has violated FOIA’s mandate to respond to appeals
within 20 business days. See 5 U.S.C. § 552(a)(6)(A)(ii).
61. Defendants have wrongfully withheld the requested records from Sierra Club.
62. Sierra Club has exhausted any and all applicable
administrative remedies.
63. Sierra Club is entitled to obtain the requested
records immediately.

86
SECOND CAUSE OF ACTION
Improperly withholding responsive records
(Violation of FOIA, 5 U.S.C. §§ 552)

64. Plaintiff realleges and incorporates the allegations of all the preceding paragraphs of this Complaint
as if fully set forth herein.
65. Defendants have withheld documents, purportedly on the basis of FOIA exemptions, without meeting
their burden of establishing that the exemption applies.
66. Defendants have improperly withheld and redacted documents responsive to Sierra Club’s FOIA request that are not within the scope of the exemptions
asserted by Defendants.
67. Defendants have wrongfully withheld requested
records from Plaintiff.
68. Plaintiff has exhausted any and all applicable
administrative remedies.
69. Sierra Club is entitled to obtain the requested
records immediately.
VII. RELIEF REQUESTED
WHEREFORE, Plaintiff requests that this Court en-

ter an order and judgment:

a. Declaring that Defendants have violated
FOIA by failing to properly respond to Plaintiff ’s FOIA
request and provide all responsive records;
b. Declaring that Defendants have failed to comply with FOIA’s statutory deadlines.
c. Ordering that Defendants immediately produce all requested records to Plaintiff along with a

87
“Vaughn index” of any records withheld under claim of
exemption;
d. Ordering that Defendants produce any documents listed on its Vaughn index that the Court determines are not exempt from FOIA;
e. Awarding Plaintiff its litigation costs and reasonable attorneys’ fees in this action; and
f. Ordering such other and further relief as the
Court may deem just and proper.
Dated:

Mar. 22, 2015
Respectfully submitted,
SUPER LAW GROUP, LLC.
By:

/s/ REED W. SUPER
REED W. SUPER
Attorney for Plaintiff
Sierra Club

88
To:

noaa.gov]

Helen Golde — NOAA Federal[helen.golde@

Samuel Rauch — NOAA Federal[samuel.rauch@
noaa.gov]; Mary Beth Ward — NOAA Federal [mary.
beth.ward@noaa.gov]
From:
Stoner, Nancy
Sent:
Wed 10/2/2013 12:05:50 PM
Subject: RE: 316(b) consultation
Cc:

Helen,
Work on the 316(b) rule is not considered excepted because of the terms of the settlement agreement, which
allow us to seek an extension because of the gov’t shutdown. We will get the revised language to you and to
OMB promptly after the gov’t reopens.
Nancy
Helen Golde — NOAA Federal [mailto:
helen.golde@noaa.gov]
Sent:
Tuesday, Oct. 01, 2013 11:59 AM
To:
Stoner, Nancy
Cc:
Samuel Rauch — NOAA Federal; Mary Beth
Ward — NOAA Federal
Subject: 316(b) consultation
From:

Hi Nancy:
As you are aware, on June 18, 2013, NOAA Fisheries initiated formal consultation with EPA on its CWIS rule;
the Services and EPA agreed on August 29, 2013, as the
due date for final rule revisions. This final rule will

89
serve as the basis for the “Description of the Action” for
our Biological Opinion. Based on this schedule the
Services agreed to provide a draft biological opinion to
EPA on October 15, 2013 and a final opinion to EPA on
October 31, 2013, which would have allowed EPA to
meet its November 4 deadline to file the final rule with
the Federal Register.
Based on our conversations with EPA staff, EPA intends to provide another revised rule with ESA edits,
once those edits are approved by their administrators.
Until then, we cannot write the majority of the Biological Opinion, including the description of the action and
the effects analysis. However, as of the end of the
workday September 30, 2013, EPA has not provided us
the final revised rule incorporating our suggestions to
help EPA fulfill its obligations under Sec. 7 of the ESA.
Thus our biologists were not able to continue work on
the consultation prior to being furloughed this morning.
It is our assumption that you will be seeking an
extension with OMB to finalize this language and with
DOJ to seek an extension of your rule due date of November 4. If this is not the case or that is unsuccessful,
please contact Sam Rauch, NOAA Fisheries Deputy Assistant Administrator for Regulatory Programs (office:
301-427-8020; cell 301-938-6431; copied on this email),
and be will initiate the process to recall Jennifer
Schultz the consultation biologist. However, as noted
above, NMFS will need the final rule language before
recalling her.

90
Thank you,
Helen
-Helen M. Golde

Deputy Director
NOAA Fisheries
U.S. Department of Commerce
Office: 301-427-8400
Mobile: 240-429-0344
helen.golde@noaa.gov
www.nmfs.noaa.gov/pr/

91

“Sayers, Rick” <rick_sayers@fws.gov>
From:

“Sayers, Rick” <rick_sayers@fws.gov>

Sent:

Thu Oct 31 2013 06:48:27 GMT-0600 (MDT)

To:

“Wood, Robert” <wood.robert@epa.gov>

Subject:

Expectations for Completion of the 316(b)
Consultation

Rob—
Thanks for your call this morning. I would like to clarify our plans and make sure these will work for EPA and
FWS.
We had originally promised to deliver a draft BO within
30 days and a final BO within 45 days of receipt of the
revised regulation. With the exact date of the receipt
of the regulations still not set, and the Thanksgiving holiday period now encompassed by the time frame at issue,
I need to offer a revised expectation that I think will still
fit with the dates you and I discussed for a possible settlement extension.
With the assumption that we will receive a revised regulation no later than November 1, 2013, we would commit to deliver a draft BO to EPA no later than December
6th and a final BO (assuming prompt response from EPA)
no later than December 20th. These adjustments are
necessary to accommodate the approved leave requests
that our lead staff person has submitted. If there are

92
further delays in transmitting the revised regulations
beyond November 1, 2013, these dates will need to extend further out as our ability to conduct timely and
thorough review of the draft and final documents will be
hindered by several people (myself included) using large
blocks of leave starting around December 20th.
Rick Sayers
Chief, Division of Environmental Review
U.S. Fish & Wildlife Service — Ecological Services
4401 N. Fairfax Dr., Rm 420
Arlington, VA 22203
(703) 358-2442
“Sayers, Rick” <rick_sayers@fws.gov>

93
NOAA
From:

NOAA

Sent:

Tuesday, Dec. 03, 2013 5:21 PM

To:

Wendy Piniak — NOAA Affiliate

Subject:

Fwd:
BiOp

rollout plan for the EPA draft

Attachments: 316(b)draft_rollout 12_3_2013 PBL.docx;

ATT00638.htm

Hi Wendy,
To answer your other email, [REDACTED]? If you
want wording, you can use language from the rollout
(this is draft, Jonathan is working on final). Also, I will
be in tomorrow morning if you’d rather I do it.
Thanks!
Jenny
Sent from my iPhone
Begin forwarded message:
From:
Date:
To:

Jennifer Schultz — NOAA Federal
<jennifer.schultz@noaa.gov>
Dec. 3, 2013, 9:19:35 AM EST
Jonathan Shannon — NOAA Federal <jonathan.shannon@noaa.gov>

Subject: Re:

rollout plan for the EPA draft BiOp

Hello again,
With corrections to names/phone numbers.

94
Jennifer Schultz, Ph.D.

Endangered Species Act Interagency Cooperation
Division
Office of Protected Resources
NOAA Fisheries
U.S. Department of Commerce
301-427-8443

jennifer.schultz@noaa.gov
www.nmfs.noaa.gov

On Tue, Dec 3, 2013 at 8:21 AM, Jonathan Shannon
— NOAA Federal
<jonathan.shannon@noaa.gov> wrote:
Jenny,
Thank you, I have to finish the right whale rollout but
can review this later this morning or early afternoon.
Put me as the rollout lead instead of Christina
Durham.
NOAA PCO — Celeste Leroux 202-482-1172
NOAA Leg Affairs — Christina Durham 202-4825935
Tanya D. is detail to the Marine Mammal Commission, so she is no longer our leg affairs, it is Christina D.

95
We should also provide these talking points to Connie
Barclay in Public Affairs and Kate Naughten in Fisheries Communications so they are aware. I’ll add
them in during my edit.
Best,
Jonathan Shannon

Outreach Specialist
NOAA Fisheries Office of Protected Resources
U.S. Department of Commerce
Office: 301-427-8431
jonathan.shannon@noaa.gov
☒
Web

www.nmfs.noaa.gov/pr

Facebook

www.facebook.com/usnoaafisheriesgov

Twitter

www.twitter.com/noaafisheries

YouTube

www.youtube.com/usnoaafisheriesgov

On Mon, Dec 2, 2013 at 7:21 PM, Pam lawrence
<pamela.lawrence@noaa.gov> wrote:
Ron, I agree that it is likely that EPA will put this
draft on their docket. We should probably ask them
if they are going to.
I had a few comments on the attached. I put in the
heading that NMFS did not plan a public release. I
added “draft” a few places to clarify. I also added a
couple of bullets at the end about what happens next.

96
I am around tomorrow if anyone has questions. 301713-9672 or 240-328-9928.
On 12/2/2013 7:16 PM, Ron Dean — NOAA Federal
wrote:
EPA OW has a track record of putting these drafts
on their docket which then show up on regulations.
gov, so this is a really good idea.
On Mon, Dec 2, 2013 at 6:50 PM, Jennifer Schultz —
NOAA
Federal
<jennifer.schultz@noaa.gov>
wrote:
Hello everyone,
I apologize for the mass email, but we need to turn
this around quickly. F-suite has requested a rollout plan for the 316(b) draft opinion by COB tomorrow, and I know that Cathy, Helen, and Donna
are going to be on a retreat.
The draft roll-out plan is attached. I know that
you are busy reviewing the draft opinion, and it is
not necessary for everyone to review the roll-out
plan. Pam, can you review the draft, and Cathy
can you give the “OK” to send to Helen and
Donna?
I am also cc’ing Jonathan so that he is in the loop
(Jonathan, this is a draft, so it will not be posted
on our website, but I wanted you to be aware that
it is out there). Jonathan, do you have phone
numbers for Celeste and Christina? Also, do you
know if Tanya is still our legislative contact?

97
Thank you!
Jenny
Jennifer Schultz, Ph.D.

Endangered Species Act Interagency Cooperation Division
Office of Protected Resources
NOAA Fisheries
U.S. Department of Commerce
301-427-8443

jennifer.schultz@noaa.gov
www.nmfs.noaa.gov
☒
---------- Forwarded message ---------From: Brianne Smith — NOAA Federal
<brianne.smith@noaa.gov>
Date: Mon, Dec 2, 2013 at 6:10 PM
Subject: Re: rollout plan for the EPA draft
BiOp
To: Jennifer Schultz — NOAA Federal
<jennifer.schultz@noaa.gov>
Cc: Wendy Piniak — NOAA Affiliate <wendy.
piniak@noaa.gov>
No one’s in NOAA Policy now, so you can skip
that person. Celeste Leroux is the NOAA
PCO and Christina Durham would be the lead
for this action.
Thanks!!
Brianne

98
On Mon, Dec 2, 2013 at 5:58 PM, Jennifer
Schultz — NOAA Federal <jennifer.schultz@
noaa.gov> wrote:
Hi Brianna and Wendy,
No problem, I will put it together tonight
and send it out for review tomorrow. Do either of you have a recent roll-out plan so I
know who is currently serving in the various
roles (NOAA policy, etc.)?
Thanks,
Jenny
Jennifer Schultz, Ph.D.

Endangered Species Act Interagency Cooperation Division
Office of Protected Resources
NOAA Fisheries
U.S. Department of Commerce
301-427-8443

jennifer.schultz@noaa.gov
www.nmfs.noaa.gov
☒

99
On Mon, Dec 2, 2013 at 3:56 PM, Brianne
Smith — NOAA Federal <brianne.smith@
noaa.gov> wrote:
Hi Jenny,
If you want to roll out by Friday, ideally, I’d
like to have it by no later than COB
tomorrow/early Wed. I need to have some
time to circulate it for review. Do you
know (or can you find out) whether EPA
plans to make the draft available to anyone
(i.e., the Hill or OMB)? If you’d like Christina to reach out to her counterpart at EPA,
she can do that, but I wanted to check with
you first.
thanks,
Brianne
Also,
On Mon, Dec 2, 2013 at 3:37 PM, Jennifer
Schultz — NOAA Federal <jennifer.schultz@
noaa.gov> wrote:
Hi Wendy,
Yes, I can prepare something . . . can i
get it to you and Brianne by Wednesday
COB, or do you need it earlier?

100
Jenny
Jennifer Schultz, Ph.D.

Endangered Species Act Interagency Cooperation Division
Office of Protected Resources
NOAA Fisheries
U.S. Department of Commerce
301-427-8443

jennifer.schultz@noaa.gov
www.nmfs.noaa.gov
☒
On Mon, Dec 2, 2013 at 2:26 PM, Wendy Piniak — NOAA
Affiliate <wendy.piniak@noaa.gov> wrote:
Hi Jenny,
Just checking in for Brianne on the EPA
draft BiOp (scheduled for release still on
the 6th?) — do you have a draft rollout
plan she can send out for review?
Thanks!
Wendy
~~~~~~~~~~~~~~~~~~~~~
Wendy E. D. Piniak, Ph.D.

Protected Resources Office of the Director
NOAA Fisheries
Department of Commerce
Office: 301-427-8416
Mobile: 717-880-4793

101
wendy.piniak@noaa.gov
www.nmfs.noaa.gov/pr
-Brianne Smith
Office of the Assistant Administrator
National Marine Fisheries Service
NOAA
(301) 427-8022

brianne.smith@noaa.gov

-Brianne Smith
Office of the Assistant Administrator
National Marine Fisheries Service
NOAA
(301) 427-8022

brianne.smith@noaa.gov

-Ron Dean
Office of Protected Resources
NOAA National Marine Fisheries Service
1315 East-West Highway Rm. 13755
Silver Spring, MD 20910
301.427.8445

102
To:
From:
Sent:
Subject:

Stoner, Nancy[Stoner.Nancy@epa.gov]
Wood, Robert
Tue 12/3/2013 1:01:34 PM
Re: Plan to talk to Bob P about 316(b) and
ESA.

I believe it does no become public until the BiOps are
finalized. I’m checking to verify.
From:
Sent:
To:
Cc:
Subject:

Stoner, Nancy
Tuesday, Dec. 03, 2013 7:53:56 AM
Wood, Robert; Southerland, Elizabeth
Kopocis, Ken
Re: Plan to talk to Bob P about 316(b) and
ESA.

So is it public on Friday or just later it becomes public
that there was a draft BiOp with a jeopardy opinion?
From:
Sent:
To:
Cc:
Subject:

Wood, Robert
Tuesday, Dec. 03, 2013 7:51:37 AM
Stoner, Nancy; Southerland, Elizabeth
Kopocis, Ken
Re: Plan to talk to Bob P about 316(b) and
ESA.

As far as I know, Services plan to give EPA draf Jeopardy opinions for review this Friday 12/6. I am trying

103
to verify both the date and the type of opinion with Services and Cortney. Will let you know asap if any new
information.
Also, as you know from Jenny’s email, they plan to put
all meeting notes, emails and draft opinions in the record.
I expect to talk to Paul Souza sometime this morning to
catch up.
From:
Sent:
To:
Cc:
Subject:

Stoner, Nancy
Tuesday, Dec. 03, 2013 7:28:41 AM
Southerland, Elizabeth; Wood, Robert
Kopocis, Ken
Plan to talk to Bob P about 316(b) and ESA.

What intel do we have?
ÿ
To:
From:
Sent:
Subject:

Stoner, Nancy[Stoner.Nancy@epa.gov]
Southerland, Elizabeth
Tue 12/3/2013 12:48:51 PM
Re: Plan to talk to Bob P about 316(b) and
ESA.

Will do. I will also tell him we will need to elevate if we
can’t get final OMB comments asap on non ESA issues.

104
From:
Sent:
To:
Subject:

Stoner, Nancy
Tuesday, Dec. 03, 2013 7:47:03 AM
Southerland, Elizabeth
Re: Plan to talk to Bob P about 316(b) and
ESA.

Maybe you should call Jim.

From:
Sent:
To:
Cc:
Subject:

Southerland, Elizabeth
Tuesday, Dec. 03, 2013 7:44:18 AM
Stoner, Nancy; Wood, Robert
Kopocis, Ken
Re: Plan to talk to Bob P about 316(b) and
ESA.

Rob wasn’t able to reach Courtney yesterday but can
keep trying today. In the meantime, Services confirmed their draft Biop expected this Friday will be in
the record.

From:
Sent:
To:
Cc:
Subject:

Stoner, Nancy
Tuesday, Dec. 03, 2013 7:28:41 AM
Southerland, Elizabeth; Wood, Robert
Kopocis, Ken
Plan to talk to Bob P about 316(b) and ESA.

What intel do we have?
ÿ

105
Wellman, Lois
Drew Crane
Gary”s edits
Monday, Dec. 09, 2013 10:23:16 AM
316b_BiOp-Draft_V5 (1).docx
Attachment Withheld - b5 Deliberative Process
From:
To:
Subject:
Date:
Attachments:

Drew,
I made the edits Gary requested. Please refer to the
highlighted portion of the letter (2nd page) for Gary’s
instructions for you. He said to do the other stuff he
gave you first. Once this is done I can email him and
we have an autopen with his signature we can use to
send it out. Please let me know if you have any questions.
Lois
-Lois Wellman
AES Administrative Assistant
Office of the Assistant Director for Ecological Services
U.S. Fish & Wildlife Service
1849 C St. NW
MIB 3345
Washington, DC 20240
(202)208-4646/(202)208-5618 fax
Lois_Wellman@fws.gov

106
Kopocis, Ken[Kopocis.Ken@epa.gov]; Feldt,
Lisa[Feldt.Lisa@epa.gov;)
Neugeboren,
Steven
[Neugeboren.Steven@epa.gov]
From:
Garbow, Avi
Sent:
Thur 12/12/2013 8:32:54 PM
Subject: FW: Next steps
Draft RPA.docx
To:

See below and attached.
Avi Garbow
General Counsel
U.S. Environmental Protection Agency
(202) 564-8040

From:

Boling, Edward [mailto:ted.boling@sol.doi.

Sent:
To:
Cc:
Subject:

Thursday, Dec. 12, 2013 3:32 PM
Garbow, Avi
Lois J. Schiffer
Re: Next steps

gov]

Avi:
Attached per our conversations, are the current draft
RPAs for further discussion. I’ve heard from Gary
Frazer that Rob Wood has scheduled a meeting for tomorrow at 9:30am and that FWS is flying people back
from Denver in time for that meeting. Please feel free
to call me to discuss. If not reachable at the numbers
below, I’m always available at [REDACTED]

107
Best,
Ted Boling
Deputy Solicitor — Parks & Wildlife
U.S Department of the Interior
1849 C Street NW Washington, DC 20240
202-208-4423 (main)
202-208-3125 (direct )
202-208-5584 (fax)
Ted.Boling@sol.doi.gov
On Thu, Dec 12 2013 at 12:04 PM, Boling, Edward
<ted.boling@sol.doi.gov> wrote:
Avi — following up on vm, I’d like to touch base with
you about transmitting a document to EPA.
I’m available on the direct line below or on cell at [ RE-

DACTED]

Ted Boling
Deputy Solicitor — Parks & Wildlife
U.S Department of the Interior
1849 C Street NW
Washington, DC 20240
202-208-4423 (main)
202-208-3125 (direct)

108
202-208-5584 (fax)
Ted.Boling@sol.doi.gov
Kopocis, Ken[Kopocis.Ken@epa.gov]
Southerland, Elizabeth
Tue 12/17/2013 6:30:14 PM
FW: Services paper on RPA’s/conditions.
Revised Combined NMFS and USFWS RPA-12.17.
2013 noon PBL (3).docx
To:
From:
Sent:
Subject:

Elizabeth Southerland, Director
Office of Science & Technology
Office Water
Room 5233A - MC - 4301T
Washington, D.C. 20460
Direct: (202) 566-0328
Fax: (202) 566-0441

109
Lois Schiffer — NOAA Federal [mailto:lois.
schiffer@noaa.gov]
Sent:
Tuesday Dec. 17, 2013 12:15 PM
To:
Southerland, Elizabeth; Wood, Robert; Boling,
Ted; Rick Sayers; Christine Blackburn; Donna Wieting
— NOAA Federal; cathy.tortorici@noaa.gov; Jennifer Schultz — NOAA Federal; Pamela Lawrence —
NOAA Federal
Subject: Services paper on RPA’s/conditions.
From:

-Lois Schiffer
General Counsel
National Oceanic & Atmospheric Administration
U.S. Department of Commerce
Phone: 202-482-4080
Cell: 202-573-1583
Email: Lois.Schiffer@noaa.gov

110

United States Department of the Interior
FISH AND WILDLIFE SERVICE
Washington, D.C. 20240

In Response Refer To:
FWS/AES/DER/BCH/056189
Mr. Robert Wood
Director
Engineering and Analysis Division
Office of Water
U.S. Environmental Protection Agency
Washington, D.C. 20460
Dear Mr. Wood:
In accordance with section 7 of the Endangered Species
Act (ESA) of 1973, as amended (16 U.S.C. 1531
et seq.), and the Interagency Cooperation Regulations
(50 CFR 402), this transmits our final biological opinion
(Opinion) on the U.S. Environmental Protection
Agency’s (EPA) issuance and implementation of the final regulations implementing Section 316(b) of the
Clean Water Act (CWA). Section 7(a)(2) of the ESA of
1973, as amended (16 U.S.C. 1536(a)(2)), requires Federal agencies to insure that any action they authorize,

111
fund, or carry out is not likely to jeopardize the continued existence of any endangered or threatened species
or result in the destruction or adverse modification of
critical habitat. When a Federal agency’s action may
affect listed species or critical habitat, formal consultation with the National Marine Fisheries Service (NMFS)
and/or the U.S. Fish and Wildlife Service (USFWS) is
required (50 CFR 402.14(a)). EPA requested formal
consultation even though EPA was of the opinion that
its action would not cause adverse effects to listed species and critical habitat. After review of the proposed
regulation, biological evaluation, and other available
information we determined that the proposed action is
likely to adversely affect threatened and endangered
species and designated critical habitat.
Federal agencies may request a conference on a proposed action that may affect proposed species or proposed critical habitat. While the EPA request for consultation indicates proposed species were addressed in
the biological evaluation, a conference opinion was not
requested, nor was the information presented in the biological evaluation sufficient to complete a conference
opinion for all proposed species. Therefore, we are not
providing a conference opinion at this time.
EPA proposes to issue and implement final regulations
(40 CFR 122 and 125; Rule) to establish requirements
for cooling water intake structures (CWIS) at existing
facilities under section 316(b) of the CWA. This document transmits a joint NMFS and USFWS Opinion on
the proposed action and its effects on ESA-listed species
and designated critical habitat. We based our Opinion
on information provided in the draft Rule and Preamble,
the Services’ interpretations of that rule as agreed upon

112
by EPA on April 8, 2014, the biological evaluation for the
CWA section 316(b) Rulemaking provided by EPA on
June 18, 2013, consultation meetings, peer-reviewed publications, recovery plans, government reports, grey literature, scientific and commercial data, and other sources of
information. We prepared our Opinion in accordance
with section 7(a)(2) of the statute (16 U.S.C. 1536(a)(2)),
associated implementing regulations (50 CFR 402), and
agency policy and guidance (USFWS and NMFS 1998).
We appreciate your commitment in the conservation
of endangered species. If you require further assistance or have any questions, please contact Ms. Cathy
Tortorici, Chief, Interagency Cooperation Division,
NMFS, at 301-427-8495 or by e-mail at cathy.tortorici@
noaa.gov, or Ms. Patrice Ashfield, Chief, Branch of Consultations and Habitat Conservation Planning, USFWS,
at 703-358-2478 or by e-mail at patrice_ashfield@fws.gov.
Sincerely,

Attachment

113
Endangered Species Act Section 7 Consultation
Programmatic Biological Opinion
on the
U.S. Environmental Protection Agency’s
Issuance and Implementation of the
Final Regulations
Section 316(b) of the Clean Water Act

U.S. Fish and Wildlife
Service
Endangered Species
Program
Division of Environmental Review
Arlington, Virginia

National Marine Fisheries Service
Office of Protected
Resources
Endangered Species Act
Interagency Cooperation
Division
Silver Spring, Maryland

May 19, 2014

114
Table of Contents
1.0 Consultation History ................................................... 1
2.0 Description of the Proposed Action ........................... 2
2.1 EPA Requirements ............................................... 4
2.2 Owner or Operator Requirements ...................... 4
2.2.1 Permit Application ..................................... 5
2.2.3 BTA Standards for Impingement
Mortality .................................................................. 7
2.2.4 BTA Standards for Entrainment ............. 9
2.2.5 Monitoring .................................................. 9
2.2.6 Reporting ................................................... 10
2.2.7 Incidental Take ......................................... 11
2.3 Director Requirements ...................................... 11
2.3.1 Permit Application ................................... 12
2.3.2 Permit Requirements .............................. 12
2.3.3 Impingement ............................................. 14
2.3.4 Entrainment .............................................. 14
2.3.5 Monitoring and Reporting ...................... 16
2.3.6 Incidental Take ......................................... 16
2.3.7 Permit Modification ................................ 16
2.3.8 Permit Modification ................................ 17
3.0 Approach to the Assessment ..................................... 17
4.0 Action Area .................................................................. 18
5.0 Status of the Species .................................................. 21
6.0 Environmental Baseline............................................ 28
7.0 Effects of the Action .................................................. 35
7.1 Programmatic Approach ................................... 35
1.1.1 Scope .......................................................... 37
1.1.2 Stressors .................................................... 40
1.1.3 Minimization of likely adverse
effects ..................................................................... 56

115
1.1.4 Identifies, informs, encourages, and
screen applicants for potential eligibility
under the Rule ...................................................... 62
1.1.5 Monitoring and evaluation of
adverse effects ....................................................... 63
1.1.6 Compliance ................................................ 64
1.1.7 Adaptive management ............................. 65
8.0 Cumulative Effects .................................................... 66
9.0 Integration and Synthesis of Effects....................... 67
10.0 Conclusion ................................................................. 71
11.0 Incidental Take Statement ..................................... 75
12.0 Reasonable and Prudent Measures ........................ 76
13.0 Terms and Conditions .............................................. 76
14.0 Conservation Recommendations ............................ 78
15.0 Reintiation Notice .................................................... 78
16.0 Literature Cited ........................................................ 80

116
1.0

Consultation History

On July 9, 2004, U.S. Environmental Protection Agency
(EPA) promulgated regulations establishing requirements for Cooling Water Intake Structures (CWIS) at
existing facilities (69 FR 41576). On January 25, 2007,
the Second Circuit remanded parts of the regulations to
EPA (Riverkeeper, Inc., v. EPA, 475 F.3d 83 (2nd Circuit 2007) holding that EPA impermissibly balanced
costs and benefits in developing the requirements. On
July 9, 2007, EPA suspended the regulations (72 FR
37107). On April 1, 2009, the U.S. Supreme Court reversed, holding that EPA could consider costs and benefits in its regulatory decisions under section 316(b)
(Entergy Corp. v. Riverkeeper, Inc., 556 U.S. 208 (2009).
On November 22, 2010, EPA signed a settlement agreement with Riverkeeper, Inc. to establish rulemaking
dates, which included final action by July 27, 2012. On
July 17, 2012, the parties agreed to an amendment to extend the date for the final Rule until July 27, 2013.
On April 20, 2011, pursuant to section 316(b) of the
Clean Water Act (CWA), EPA proposed regulations establishing requirements for CWISs at existing facilities
(76 FR 22174). In its proposed Rule, EPA replaces with
amendments the suspended regulations establishing requirements for CWISs at existing facilities.
On July 20, 2012, EPA met with the National Marine
Fisheries Service (NMFS) to commence informal ESA
Section 7(a)(2) consultation.
On October 1, 2012, EPA met with the U.S. Fish and
Wildlife Service (USFWS) to commence informal ESA
section 7 consultation. The USFWS and NMFS (i.e.,
the Services) met with EPA numerous times to discuss

117
their action, its impacts to listed species, and measures
to minimize impacts.
On April 4, 2013, EPA sent the Services an early draft
of the Rule.
On April 12, 2013, the Services provided comments on
the early draft of the Rule.
On June 18, 2013, EPA submitted a section 7 consultation initiation package, which included the draft Rule,
draft Preamble, and biological evaluation. We initiated
formal consultation on June 18, 2013.
On June 27, 2013, EPA signed a modified settlement
agreement with Riverkeeper, Inc. to extend the date for
the final Rule until November 4, 2013, to allow for the
completion of formal section 7 consultation with the Services. This deadline was subsequently extended to
January 14, 2014 and then to April 17.
Between June 27 and November 4, the Services met
with EPA frequently to discuss EPA’s action.
On November 4, 2013, we received a revised version of
the proposed 316(b) Rule from Office of Management
and Budget.
On November 15, 2013, we sent the Description of the
Action to EPA for review.
On November 26, 2013, EPA sent corrections and comments on the Description of the Action and we incorporated their edits into the final Description of the Action.
From December 6, 2013, through March 11, 2014, the
Services and EPA engaged in numerous exchanges
about possible revisions to the processes embodied in
EPA’s draft final Rule.

118
On March 14, 2014, EPA sent the Services the final Rule
and Preamble.
On March 31, 2014, the Services provided EPA with a
document seeking clarification on the Services’ understandings of key elements in EPA’s proposed action).
On April 8, 2014, EPA provided confirmation on the Services’ description and understanding of the key elements of EPA proposed action. (Attached as Appendix
A)
2.0

Description of the Proposed Action

EPA proposes to issue and implement a final Rule to establish requirements for CWIS at existing facilities and
modify certain requirements for new facilities under an
existing rule. EPA will amend specific parts of the
Rule, which implement section 316(b) of the CWA, that
had previously been suspended (72 FR 37107) in response to the 2nd Circuit Court of Appeals’ decision in
Riverkeeper, Inc., v. EPA. These parts include: 40
CFR 122.21(r)(1)(ii) and (5), 125.90(a), (c), and (d), and
125.91 through 125.99. In response to the Court’s remand, EPA in its final regulation also proposes to remove the restoration-based compliance alternative and
associated monitoring and demonstration requirements
for new facilities (125.84(c) and (d)(1)) 1 . In addition,
EPA proposes to modify other parts of its regulations

The removal of the restoration-based compliance alternative and
associated monitoring and documentation requirements for new facilities are non-discretionary actions on the part of EPA and therefore, the effects of these actions are not being addressed in this biological opinion.
1

119
implementing section 316(b) to establish new requirements for all existing power generating facilities and existing manufacturing and industrial facilities that withdraw more than two million gallons of water per day
(mgd) from waters of the United States and use at least
25 percent of the water they withdraw exclusively for
cooling purposes (76 FR 22173). In summary, in response to litigation, EPA will issue a final Rule to establish modified or new requirements for facilities that withdraw water for CWIS.
Section 316(b) of the CWA requires that the location, design, construction, and capacity of CWIS reflect the best
technology available (BTA) for minimizing adverse environmental impacts. Under the regulation, the term
“cooling water intake structure” means the total physical structure and any associated waterways used to withdraw cooling water from waters of the United States.
For purposes of the final Rule, adverse environmental
impacts include, but are not limited to, impingement and
entrainment at CWIS, including adverse effects to federally-listed species (species listed as threatened or endangered under the ESA or ESA-listed species) and
designated critical habitat, and changes in flow regime,
caused by the withdrawal of water. Impingement is
defined as the entrapment of any life stages of fish and
shellfish on the outer part of an intake structure or
against a screening device during periods of intake water withdrawal. Entrapment is defined as the condition where impingeable fish and shellfish lack the means
to escape the cooling water intake. Entrainment is defined as any life stages of fish and shellfish in the intake
water flow entering and passing through a cooling water
intake structure and into a cooling water system, including the condenser or heat exchanger.

120
EPA tailored the Rule toward the protection of fish and
shellfish. However, federally-listed aquatic organisms
that do not fall into the classification of fish and shellfish
are also impacted by impingement, entrainment, and entrapment (e.g., manatees, turtles). The Rule provides
that the Director may establish in the permit additional
control measures, monitoring and reporting requirements that are designed to minimize incidental take, reduce or remove more than minor detrimental effects (as
defined on page 4 of this Opinion) to federally-listed species and designated critical habitat, or avoid jeopardizing federally-listed species or destroying or modifying
designated critical habitat. As such, and based on communication received from EPA on April 8, 2014, (Appendix A), the Rule’s application to “fish and shellfish” and
the Director’s authority to establish additional
measures to protect listed species and habitat will encompass all taxa of listed species, including their critical
habitat. This consultation also considers the direct and
indirect effects to federally-listed species caused by facilities operating CWIS under requirements of the Rule,
including but not limited to; impingement, entrainment,
loss of prey, changes in water quality, and flow alteration.
The Rule regulates existing facilities and new units at
existing facilities that withdraw cooling waters from waters of the United States and have, or require, a National Pollutant Discharge Elimination System
(NPDES) permit, issued under section 402 of the CWA.
The NPDES permit program is administered by State
Directors in authorized States. However, EPA retains
the NPDES permit program for facilities located in:
Idaho, Massachusetts, New Hampshire, New Mexico, Dis-

121
trict of Columbia, American Samoa, Guam, Johnston Atoll, Midway Island, Northern Mariana Islands, Puerto
Rico, and Wake Island, as well as certain Federal facilities and facilities located on Tribal Lands.
The Rule applies to owners or operators of existing facilities with CWISs that withdraw > 2 mgd and use at
least 25 percent of the water for cooling purposes. It
also applies to the State or EPA Regional Director (i.e.,
the Director 2 ), who establishes controls under CWA
Section 316(b) authority on withdrawals through the
NPDES permitting process.
Regulatory requirements are described in full in the Rule (40 CFR 122 and
40 CFR 125) and further explained in the Preamble.
Here, we summarize the Rule, Preamble and relevant
correspondence from EPA to describe EPA’s action
with sufficient detail to evaluate its impact on ESAlisted species and designated critical habitat.
2.1

EPA Requirements

When EPA is the NPDES permitting authority and has
determined the issuance of the permit may affect ESAlisted species or designated critical habitat, they then
must request consultation under section 7(a)(2) of the
ESA. As discussed in Section 2.3, regarding State or
Tribal-issued CWIS permits, in the Preamble, EPA reaffirms its commitment to the procedures stipulated in
the 2001 Memorandum of Agreement (MOA) signed by
EPA, and the Services (66 FR 11202). EPA has incorporated as part of its action relevant sections of the
MOA, as described in the Preamble to the Rule and,
based on correspondence with EPA received on April 8,
See 40 CFR 122.2 for the Definition of Director as used in the
Rule.
2

122
2014 (attached as Appendix A), EPA commits to the following implementation of their NPDES oversight authorities in situations where the Services contact EPA
with concerns that a State or Tribal permit will have
more
than
minor
detrimental
effects
on
federally-listed species or critical habitat that cannot be
resolved with the State or Tribal permitting authority:
i.

EPA will coordinate with the State or Tribe to
ensure that the permit will comply with all applicable CWA requirements and will discuss appropriate measures protective of federally-listed
species and critical habitat;

ii.

EPA will work with the State or Tribe to reduce
or remove the detrimental impacts of the permit,
including, in appropriate circumstances, by objecting to and federalizing the permit where consistent with EPA’s CWA authority; and

iii. EPA will exercise the full extent of its CWA authority, to object to a permit proposed by a State
where EPA finds (giving deference to the views
of the Services) that a State or Tribal permit is
likely to jeopardize the continued existence of
such species or result in the destruction or adverse modification of such critical habitat.
o

Based on correspondence received from
EPA on April 8, 2014, EPA will give deference to the views of the Services with regard to effects on federally-listed fish and
wildlife resources.

EPA has stated adverse environmental impacts include adverse effects to listed species (USEPA
2013f ), and Section 316(b) of the CWA requires that

123
the location, design, construction, and capacity of
CWIS reflect the BTA for minimizing adverse environmental impacts.
Further, the phrase “more
than minor detrimental effects” as used in the Rule,
Preamble to the Rule, the 2001 MOA, and in EPA’s
commitment to the implementation of their NPDES
oversight authorities as described above, means “adverse effects” as that term is used in the ESA implementing regulations, consultation handbook, and MOA
(66 FR 11207) and is one type of “adverse environmental impact” as that term is used under section 316(b)
of the CWA. EPA has also defined minimize in the
Rule as “to reduce to the smallest amount, extent, or
degree reasonably possible.” In summary, EPA will
exercise its oversight authority on proposed/draft permits where the Services contact EPA with concerns
that a State or Tribal permit will have more than minor detrimental effects on Federally-listed species or
designated critical habitat. Such situations may include where a permit does not minimize adverse effects
to listed species to the smallest amount, extent, or degree reasonably possible.
2.2

Owner or Operator Requirements

In the Rule, EPA establishes certain requirements of
the owner or operator of an existing facility * * * .
*
6.0

*

*

*

*

*

*

Environmental Baseline

*
Clean Water Act

*

*

Several laws and regulations have been put in place to
help improve the state of our aquatic resources, the

124
principal one being the CWA. The original 1948 statute was totally re-written in 1972 to produce its current
purpose: “to restore and maintain the chemical, physical,
and biological integrity of the Nation’s waters” (Federal
Water Pollution Control Act, Public Law 92-500).
Congress made substantial amendment to the CWA
in the Water Quality Act of 1987 (P.L. 100-4) in response to the significant and persistent water quality
problems.
To achieve its objectives, the CWA generally prohibits
all point source discharges into the nation’s waters, unless otherwise authorized under the CWA. One of the
main ways that point source discharges are regulated is
through permits issued under the NPDES authorized under the CWA. For example, the NPDES program regulates discharges of pollutants like bacteria, oxygenconsuming materials, and toxic pollutants like heavy
metals, pesticides, and other organic chemicals. EPA
has also promulgated regulations setting effluent limitations guidelines and standards under sections 301,
304, and 306 of the CWA for more than 50 industries [40
CFR parts 405 through 471]. These effluent limitations guidelines and standards for categories of industrial dischargers are based on pollutants of concern discharged by industry; the degree of control that can be
attained using pollution control technology; consideration of various economic tests appropriate to each level
of control; and other factors identified in sections 304
and 306 of the CWA (such as non-water quality environmental impacts including energy impacts) (F76 FR
22174-22288). These effluent limitations have been credited for helping reduce the amount of pollutants like
toxic metals entering the aquatic environment (Smail et

125
al 2012). While provisions of the CWA have helped significantly improve the quality of aquatic ecosystems,
nonpoint sources of water pollution, which are believed
to be responsible for the majority of modern water quality problems in the United States, are not subject to CWA
permits or regulatory requirements. Instead, nonpoint
sources of pollution are regulated by programs overseen
by the States.
Water quality is important to all of the listed resources
identified above in Tables 2 and 3. In some cases, the
deterioration of water quality has led to the endangerment of aquatic species; in all cases, activities that
threaten water quality also threaten these listed resources. Endangered and threatened species have experienced population declines that leave them vulnerable to a multitude of threats. Because of reduced abundance, low or highly variable growth capacity, and the
loss of essential habitat, these species are less resilient
to additional disturbances. In larger populations, stressors that affect only a limited number of individuals could
once be tolerated by the species without resulting in
population level impacts, whereas in smaller populations, the same stressors are more likely to reduce the
likelihood of survival. It is with this understanding of
the environmental baseline that we consider the effects
of the proposed action, including the likely effect that
CWIS’s will have on endangered and threatened species and their designated critical habitat.
*

*

*

Impingement and Entrainment

*

*

In the biological evaluation (pages 3, 10, 21-36, and others), EPA describes impingement and entrainment as

126
potential stressors likely to be produced as a result of its
action. Impingement affects juvenile (e.g., young- ofyear) and adult stages of ESA-listed species, while entrainment affects vulnerable early life stages (USEPA
2013c). As stated in the biological evaluation, impingement and entrainment from CWIS:
“. . . may represent a substantial portion of annual
reproduction.
Consequently, [impingement and
entrainment] may either lengthen species recovery
time, or hasten the demise of these species much
more so than for species that are abundant. For
this reason, the population-level and social values of
[ESA-listed species] losses are likely to be disproportionately higher than the absolute number of losses
that occur. Unfortunately, available quantitative and
qualitative data on the effects of CWIS on [ESAlisted] species are extremely limited. However, it is
known that adverse effects of CWIS on [ESA-listed]
species may occur in several ways:
•

Individual organisms among [ESA-listed]
species may suffer direct mortality as a consequence of impingement and entrainment.
This direct loss of individuals may be particularly important because [ESA- listed] species have severely depressed population levels that are approaching local, national, or
global extinction.

•

Individuals may suffer injury, which may reduce survival probability, reproductive potential and fitness.

•

[ESA-listed] species may suffer indirect
harm if the CWIS substantially alters the

127
food web in which these species interact.
This might occur as a result of altered populations of predator or prey species, the removal of foundation species, or (for species
with parasitic life history stages) the loss of
host species.”
The biological evaluation provided limited data regarding the effect of impingement and entrainment on ESAlisted species. However, we were able to accumulate
some information from a small subset of facilities that
have completed section 7 consultations or habitat conservation plans regarding the effect of impingement and
entrainment to sea turtles. We analyzed data from 14
facilities representing 7 to 33 years of monitoring per
facility. Annual entrapment at each facility ranged
from 0 to 949 turtles. For all facilities during all years,
a total of 15,595 turtles were entrapped, an average of
46 turtles per facility per year (standard deviation =
165). The annual number of deaths at each facility was
between 0 to 28 turtles. Data presented by the facilities for all years indicated that a total of 385 entrapped
turtles died. This data represents a minimized impact
on sea turtles that can be expected from impingement
and entrainment, as the facilities summarized here had
worked with NMFS through the ESA section 7 or the
section 10 process to reduce their impacts on sea turtles.
For further information on potential impacts to sea turtles, see Appendix C.
While quantitative and qualitative data on the effects of
CWIS on the suite of ESA-listed species that may be affected by implementation of the Rule is limited, effects
to more common species have been documented through

128
various monitoring studies conducted at individual facilities. These studies provide further insight as to the
effect impingement and entrainment may have on federally-listed species. For example, Bay Shore Power
Plant located on Lake Erie near the mouth of the
Maumee River conducted an impingement and entrainment study in 2005 and 2006. At the time of the study,
the plant took in an estimated 638 million gallons of
water/day for cooling water purposes (Ager et al 2008).
The study estimated over 2.2 billion larval fish (approximately 10 percent of the larval population in the river),
208 million fish eggs, and 13 million juvenile fish were
entrained on an annual basis. Additionally, an estimated 46 million fish were impinged annually (Ager et
al 2008). While four species comprised the majority of
entrainment and impingement losses, over 50 different
species of fish were impinged or entrained during the
course of the study.
An ecological assessment prepared by the U.S. Army
Corps of Engineers (USACE) for the Upper Mississippi
River and Illinois Waterways in 2000 provides a summary of the aggregate effects of impingement and entrainment from multiple facilities along a watercourse.
The assessment contained a review of impingement and
entrainment rates of fish attributed to 40 power plants.
Eleven of the 40 plants had studies on impingement and/or
entrainment rates, with most studies being 15 to 20 years
old (West 2000). From the data available, the USACE
estimated six of the power plants accounted for over 64
million fish entrained and over 56 million fish impinged
on an annual basis (West 2000). Similar to the Bay
Shore study, over 50 different species of fish were impacted, but a smaller set of species accounted for over
50 percent of impingement and entrainment losses

129
(West 2000). In both instances, species considered relatively common comprised the majority of individuals
impinged or entrained.
These studies illustrate the large number of species and
individuals that may be impinged and entrained at a single facility, or through the combination of multiple facilities along a watercourse. So it is likely that any CWIS
operating in the vicinity of listed aquatic organisms will
cause impingement or entrainment of species protected
under the ESA (see Appendix C for species under
NMFS jurisdiction).
With regard to salmonids, we know that without screens
and bypass systems, impingement (and resulting mortality) is more likely. Automatically cleaned screens
with low approach velocity (less than 0.4 ft/s), small
screen face openings (3/32” circular or square, or 1.75
mm continuous slots or rectangular openings) and bypass systems designed for fish swimming ability and behavioral traits, typically avoid most juvenile salmonid
fish impingement or entrainment, and should be used
anywhere juvenile salmonids could be present. With
inadequate screen submergence, the water velocity directly between the water surface and the top of the
screen can exceed the juvenile salmon swimming ability,
potentially capturing fish above the screens until they
fatigue or become prey.
EPA acknowledges the potential for impingement and
entrainment to lengthen ESA-listed species recovery
time, or hasten their demise. Effects to individuals include: death, injury, and indirect effects (e.g., resulting from trophic cascades). In the biological evaluation, EPA explains that it is unable to quantify the extent of the stressors, as a result of limited data. The

130
Services agree with EPA that implementation
of the standards set forth in this Rule reduces the
impingement/entrainment of listed organisms. The
Services also acknowledges that the ultimate extent of
such impingement/entrainment is likely to be reduced
by implementation of this Rule when compared to the
extent that pre-dates the effective date of the Rule (i.e.,
prior to regulation by EPA). Upon taking effect, all
facilities covered by the Rule will be required to comply
with the Rule and therefore the appropriate effects
analysis for this Opinion is to ask whether the levels of
impingement/entrainment that will exist after the Rule
takes effect and is implemented through NPDES permits are consistent with the obligations of section 7(a)(2)
of the ESA.
The Rule requires owners and operators to provide any
previously conducted entrainment performance studies
as an information requirement of all existing facilities so
the Director can establish site-specific entrainment
standards. Additionally, facilities that withdraw more
than 125 million gallons of cooling water/day must submit as part of their permit application, an entrainment
characterization study that includes a minimum of 2
years of entrainment data collection. While the Rule
does not require monitoring for impingement or entrainment for ESA-listed species at any facilities, the
Director may establish additional monitoring for impingement, and the Director may also establish monitoring requirements for entrainment on a site-specific basis. Director determinations of monitoring may include recommendations provided by the Services as a
result of their review of permit applications. The Rule
also states that where the Director requires additional

131
measures to protect federally-listed threatened or endangered species pursuant to 125.94(g) of the Rule, the
Director shall require monitoring associated with those
measures. Allowing the Services to provide the Director
impingement and entrainment monitoring recommendations tailored to address site-specific and species-specific
issues will help address the following concerns associated with current monitoring efforts as identified in the
biological evaluation:
•

Because of the low population densities of ESAlisted species and the small volume of water
sampled for impingement and entrainment studies, it is likely that many impinged or entrained
individuals are never recorded;

•

Species identification is difficult at early life history stages (e.g., egg, larvae), which comprise a
large proportion of organisms impinged or entrained; and

•

At facilities using fish return technology, individuals returned to the waterbody may not be
recorded and the condition of the returned individuals is unknown.

In summary, EPA, in their biological evaluation, acknowledges that impingement and entrainment have the
potential to either lengthen species recovery time,
increase the number of deaths/injuries to ESA-listed
species, or increase their extinction risk. EPA also
acknowledges that most facilities overlap with at least
one ESA-listed species or designated critical habitat.
Lastly, EPA stipulates that it cannot quantify the
effects of impingement and entrainment at this time due

132
to limited data. The Rule does not establish monitoring requirements for the impingement or entrainment
of ESA-listed species and designated critical habitat.
Rather, the Rule establishes a process that allows the
Director to work with the Services to determine if additional measures are necessary to reduce impacts to federally-listed species and designated critical habitat and
if so, to determine the associated monitoring requirements. If the Director chooses to not include the
measures and associated monitoring requirements in
the permit and the Services have concerns that a permit
will have more than minor detrimental effects on federally-listed species or critical habitat and contact EPA
with their concerns, EPA has committed to the following:
i.

EPA will coordinate with the State or Tribe to
ensure that the permit will comply with all applicable CWA requirements and will discuss appropriate measures protective of federally-listed
species and critical habitat;

ii.

EPA will work with the State or Tribe to reduce
or remove the detrimental impacts of the permit,
including, in appropriate circumstances, by objecting to and federalizing the permit where consistent with EPA’s CWA authority; and

iii. EPA will exercise the full extent of its CWA authority, to object to a permit proposed by a State
where EPA finds (giving deference to the views
of the Services) that a State or Tribal permit is
likely to jeopardize the continued existence of
such species or result in the destruction or adverse modification of such critical habitat.

133
o

Based on correspondence received from
EPA on April 8, 2014, EPA will give deference to the views of the Services with
regard to effects on federally-listed fish
and wildlife resources.

To date, EPA has not been able to reliably estimate the
impact of impingement and entrainment associated with
CWIS operations on federally-listed species or critical
habitat.
However, the process of information exchange required in the Rule and EPA’s commitment to
the oversight of that process as described above will allow EPA to more reliably estimate stressors associated
with impingement and entrainment that are likely to be
produced as a direct or indirect result of CWIS operations subject to the Rule. In addition, the process committed to in the Rule also will ensure that any effects
from stressors that have more than minor detrimental
effects or that rise to the level of jeopardizing a listed
species or adversely modifying critical habitat will be
addressed through State incorporation of appropriate
measures into State permits, EPA’s work with the State
or Tribe to reduce or remove the minor detrimental impacts, including in appropriate circumstances by objecting to and federalizing the permit consistent with EPA’s
CWA authority, or EPA’s commitment to exercise the
full extent of its CWA authority to object to a permit
proposed by a State where EPA finds (giving deference
to the views of the Services) that a State or Tribal permit is likely to jeopardize the continued existence of
such species or result in the destruction or adverse modification of such critical habitat.

134
Thermal discharges

Thermal discharges are regulated under sections 301,
306, or 316(a) of the CWA to protect a balanced indigenous population of shellfish, fish and wildlife in and on
the water. While those sections of the CWA are not
subject to this consultation, thermal discharges from facilities operating a CWIS regulated under this Rule are
an interrelated action and thermal discharges are
known stressors on aquatic environments.
As described in the biological evaluation, studies have
shown that thermal discharges may substantially alter
the structure of the aquatic community by modifying
photosynthetic (Bulthuis 1987; Chuang et al. 2009; Martinez-Arroyo et al. 2000; Poornima et al. 2005) metabolic,
and growth rates (Leffler 1972), and reducing levels of
dissolved oxygen. Thermal pollution may also alter the
location and timing of fish behavior including spawning
(Bartholow et al. 2004), aggregation, and migration
(USEPA 2002), and may result in thermal shock-induced mortality for some species (Ash et al 1974; Deacutis 1978; Smythe and Sawyko 2000). Thus, thermal pollution is likely to alter the ecological services provided
by ecosystems surrounding facilities returning heated
cooling water into nearby waterbodies.

Thermal discharge limitations vary by State, but typically discharges have to remain below 90°F. A study
conducted in 2008 found that over 350 power plants
across 14 different states reported discharges exceeding
this threshold (Averyt et al. 2011). Large fish kills attributed to an exceedance of thermal discharges at
power plants have been documented (NCDWQ 2010,
Schwarzen, C. 2000 in Averyt et al 2011). Many common species of fish cannot tolerate water temperatures

135
that exceed 90°F, and for many species of trout, water
temperatures that exceed 80°F can be fatal (Seaby and
Henderson 2007, Skaggs et al 2012). “Heat death” in
fish occurs when temperatures of fish rise to a level
where coordination in the central nervous system begins
to break down (Seaby and Henderson 2007).
Dissolved oxygen likely plays a key role in temperature
tolerance (Niklitchek 2001). Water temperature and
dissolved oxygen levels are related, with warmer water
generally holding less dissolved oxygen. In summer,
the coupling of low dissolved oxygen at depth and water
temperatures greater than 20°C above the thermocline
limits non-stressful habitat due to a temperatureoxygen habitat squeeze (Coutant 1987). Sturgeon, for
example, are more sensitive to low level dissolved oxygen conditions than some other fishes and become
stressed in hypoxic conditions (generally under 5 mg/L),
which may limit growth, metabolism, activity, and swimming (Cech et al. 1984, Secor and Gunderson 1998, Secor
and Niklitschek 2001, Secor and Niklitschek 2002, Cech
and Crocker 2002, Campbell and Goodman 2004).
In summary, EPA acknowledges in the biological evaluation that temperature is “. . . a master environmental variable for aquatic ecosystems, affecting virtually
all biota and biologically mediated processes, chemical
reactions, as well as structuring the physical environment of the water column.” As described above, thermal discharges are regulated under sections 301, 306, or
316(a) of the CWA and thus, the Rule does not establish
control measures or monitoring requirements for habitats of ESA-listed species or designated critical habitat
impacted by thermal discharges. However, as thermal
discharges are an indirect effect of CWIS operations,

136
and the Rule allows Directors to base their determination of site specific entrainment requirements on the
benefits of reducing thermal discharge impacts, Directors may require additional measures, monitoring and
reporting under 316(b) to conserve federally-listed species or designated critical habitat. Measures established
by the Director may reflect recommendations made by
the Services during either the 60-day review or the public comment period. If the owner or operator or the Director choose not to incorporate Services’ recommended
measures, and the Services contact EPA with concerns
that the permit may cause more than minor detrimental
effects to federally-listed species or critical habitat, then
EPA will exercise its oversight authority, consistent
with the Preamble to the Rule as clarified in the April 8,
2014 correspondence (Appendix A). To date, EPA has
not been able to reliably estimate the impact of thermal
discharge associated with CWIS operations on federallylisted species or designated critical habitat. However,
more information will now be generated as the Rule promotes the exchange of information or technical assistance between the Services and the Directors. EPA
now commits to the oversight of that process, which will
allow EPA to more reliably estimate the physical, chemical, or biotic stressors that are likely to be produced as
a direct or indirect result of thermal discharge activities.
Flow alteration

As described in the biological evaluation, the operation
of CWIS, including water withdrawals and discharge returns, significantly alters patterns of flow within receiving waters, both in the immediate area of the CWIS intake and discharge pipe and in mainstream waterbodies.
In ecosystems with strongly delineated boundaries (i.e.,
rivers, lakes, enclosed bays, etc.), CWIS may withdraw

137
and subsequently return a substantial proportion of water available to the ecosystem. For example, of 521 facilities located on freshwater streams or rivers, 164 (31
percent) have an average intake greater than 5 percent
of the mean annual flow of the source waters (USEPA
2013c). Based on the ratio of water demand to water
supply, power plants are the major drivers of water
stress in 44 basins across the United States (Skaggs et
al. 2012). As EPA describes in the biological evaluation, such withdrawals are likely to have significant impact on the aquatic habitat, in general, and on ESAlisted species and designated critical habitat, especially
in inland riverine environments.
All withdrawals are likely to alter flow characteristics of
the waterbody including turbulence and water velocity
(USEPA 2013c). As described in the biological evaluation, altered flow velocities and turbulence may lead to
several changes in the physical environment, including:
sediment deposition (Hoyal et al. 1995), sediment
transport (Bennett and Best 1995), and turbidity (Sumer et al. 1996), each of which play a role in the physical
structuring of ecosystems. Biologically, flow velocity
is a dominant controlling factor in aquatic ecosystems.
Flow has been shown to alter feeding rates, settlement
and recruitment rates (Abelson and Denny 1997), bioturbation activity (Biles et al. 2003), growth rates (Eckman and Duggins 1993), and population dynamics (Sanford et al. 1994).
In addition to flow rates, turbulence plays an important
role in the ecology of small organisms, including fish
eggs and larvae, phytoplankton, and zooplankton. In
many cases, the turbulence of a waterbody directly affects the behavior of aquatic organisms, including fish,

138
with respect to swimming speed (Lupandin 2005), location preference with a waterbody (Liao 2007), predatorprey interactions (Caparroy et al. 1998; MacKenzie and
Kiorboe 2000), recruitment rates (MacKenzie 2000;
Mullineaux and Garland 1993), and the metabolic costs
of locomotion (Enders et al. 2003). The sum of these
effects may result in changes to the food web or the location of used habitat, and thereby substantially alter
the aquatic environment (USEPA 2013).
In the biological evaluation, EPA also acknowledges
that flow alteration as a result of CWIS operation is
likely to change over time as a result of climate change.
Climate change is predicted to have variable effects on
future river discharge in different regions of the United
States, with some rivers expected to have large increases in flood flows, while other basins will experience
water stress. For example, Palmer et al. (2008) predict
that mean annual river discharge is expected to increase
by about 20 percent in the Potomac and Hudson River
basins, but to decrease by about 20 percent in Oregon’s
Klamath River and California’s Sacramento River.
To summarize, in the biological evaluation, EPA states
that CWIS may alter habitat that is essential to the
long-term survival of ESA-listed species as a result of
altered flow regimes or turbidity. Flow alterations
may be caused by all degrees of withdrawals, not just
those that withdraw a significant proportion of the mean
annual flow of source waters. To date, EPA has not
been able reliably estimate the effects of flow alteration
on ESA-listed species and critical habitat. While the
Rule does not establish control measures or monitoring
and reporting requirements to reduce the effects of flow
alteration on ESA-listed species and designated critical

139
habitat, it does establish a process that allows the Director to work with the Services to determine the benefits
of reducing impacts of flow alteration and in determining appropriate controls under section 316(b), including
those that conserve ESA-listed species. If additional
measures are necessary, the Services will be able to provide appropriate monitoring and reporting recommendations.
The Director may then include these
measures, monitoring, and reporting in the permit. If
a State or Tribal Director chooses to not include the
measures and associated monitoring requirements in
the permit and the Services have concerns that a permit
will have more than minor detrimental effects on federally-listed species or critical habitat and contact EPA
with their concerns, EPA has committed to the following:
i.

EPA will coordinate with the State or Tribe to
ensure that the permit will comply with all applicable CWA requirements and will discuss appropriate measures protective of federally-listed
species and critical habitat

ii.

EPA will work with the State or Tribe to reduce
or remove the detrimental impacts of the permit,
including, in appropriate circumstances, by
objecting to and federalizing the permit where
consistent with EPA’s CWA authority; and

iii.

EPA will exercise the full extent of its CWA authority, to object to a permit proposed by a State
where EPA finds (giving deference to the views
of the Services) that a State or Tribal permit is
likely to jeopardize the continued existence of
such species or result in the destruction or
adverse modification of such critical habitat.

140
o

Based on correspondence received from
EPA on April 8, 2014, EPA will give deference to the views of the Services with
regard to effects on federally-listed fish
and wildlife resources.

The technical assistance process facilitated by the exchange of information as required in the Rule and EPA’s
commitment to the oversight of that process as described above will allow EPA to more reliably estimate
stressors associated with flow alterations that are likely
to be produced as a direct or indirect result of CWIS operations subject to the Rule.
Chemical discharges

As described in the biological evaluation, contaminated
effluent is a byproduct of once-through cooling water
systems.
Chemical discharges are addressed in
NPDES permits by either water quality-based effluent
limitations or technology-based effluent limitations of
the CWA. We consider chemical discharges in this
consultation, because in the biological evaluation, EPA
identifies chemical discharges as a stressor produced by
operation of CWIS that fall under the purview of this
Rule.
In the biological evaluation, EPA explains that toxic pollutants, such as metals, polycyclic aromatic hydrocarbons, pesticides, biofouling chemicals, or chlorine may
be present in the discharge of CWISs. They conclude
that such chemical discharges could lead to local extirpation of sensitive species, or to greatly altered biological communities due to chronic impacts on viability,
growth, reproduction, and resistance to other stressors
(USEPA 2013). To date, EPA has not been able to reliably estimate the effects of chemical discharges on

141
ESA-listed species and designated critical habitat, as
environmental monitoring and data collection has not
been required from all facilities. The Rule does not establish specific control measures or monitoring and reporting requirements to reduce the effects of chemical
discharge on ESA-listed species and designated critical
habitat; however, it does establish a process that allows
the Director to work with the Services to determine the
benefits of reducing impacts of chemical discharge and
in determining appropriate controls under section
316(b), including those that conserve ESA-listed species. If additional measures are necessary, the Services will be able to provide appropriate monitoring and
reporting recommendations. The Director may then
include these measures, monitoring, and reporting in
the permit. If the Director chooses to not include the
measures and associated monitoring requirements in
the permit and the Services have concerns that a permit
will have more than minor detrimental effects on federally-listed species or critical habitat and contact EPA
with their concerns, EPA has committed to EPA has
committed to the following:
i.

EPA will coordinate with the State or Tribe to
ensure that the permit will comply with all applicable CWA requirements and will discuss appropriate measures protective of federally-listed
species and critical habitat;

ii.

EPA will work with the State or Tribe to reduce
or remove the detrimental impacts of the permit,
including, in appropriate circumstances, by objecting to and federalizing the permit where consistent with EPA’s CWA authority; and

142
iii. EPA will exercise the full extent of its CWA
authority, to object to a permit proposed by a
State where EPA finds (giving deference to the
views of the Services) that a State or Tribal permit is likely to jeopardize the continued existence of such species or result in the destruction
or adverse modification of such critical habitat.
o

Based on correspondence received from
EPA on April 8, 2014, EPA will give deference to the views of the Services with
regard to effects on federally-listed fish
and wildlife resources.

The technical assistance process facilitated by the
exchange of information between the Director and the
Services as required in the Rule, and EPA’s commitment to the oversight of that process as described above
will allow EPA to more reliably estimate stressors associated with chemical discharge that are likely to be produced as a direct or indirect result of CWIS operations
subject to the Rule.
Aggregate Impacts

As described in the biological evaluation, cumulative
impacts are the magnified environmental stressors created by regulated CWIS when two or more facilities are
located nearby (USEPA 2013c). To avoid confusion
with the regulatory definition of cumulative effects, we
use the term “aggregate impacts.” Aggregate impacts
are likely to occur if multiple facilities are located in
close proximity, such that they impinge or entrain
aquatic organisms within the same source waterbody,
watershed system, or along a migratory pathway of a
specific species (e.g., striped bass in the Hudson River)

143
(USEPA 2004). Aggregate impacts include the magnified effects of indirect effects associated with the operation of CWISs of two or more facilities.
EPA estimates that approximately 20 percent of potentially regulated facilities are located on waterbodies
with multiple CWIS (USEPA 2004). Review of geographic locations of 316(b) facilities (approximated by
CWIS latitude and longitude) indicates that facilities in
inland settings are clustered around rivers to a greater extent than marine and estuarine facilities (USEPA
2013c). In the biological evaluation, EPA explains that
aggregate impacts of clustered facilities may be significant, due to concentrated impingement and entrainment
mortality, combined intake flows, and the potential for
other impacts such as thermal or chemical discharges
and flow alterations. EPA also notes that power generation demand and cooling intake water volume is typically
at its annual maximum during mid-late summer, which
is also a period of seasonal low flows and highest instream temperatures. Although low flows traditionally occur in late summer to early fall, drought conditions and manipulations of water levels may lead to low
flow during other periods as well. Low flow is problematic when it overlaps with seasonal concentrations of
eggs, developing young of the years, and migrating juveniles or adults (USEPA 2013c). EPA estimates that aggregate impacts may be greater in inland waters due to
the following factors:
•

the majority of national annual intake flow is associated with freshwater CWIS;

•

freshwater plants use a greater relative volume
of available fish habitat than marine or estuarine
counterparts; and

144
•

seasonal variation in power demand and river
flow may increase entrainment potential during
low-flow periods of the year (NETL 2009).

To summarize, in the biological evaluation, EPA acknowledges that the stressors described above are magnified when two or more facilities are located in close proximity; approximately 20 percent of facilities are located
in waterbodies with multiple CWIS; and most facilities
overlap with at least one ESA-listed species. Because
the above stressors have the potential to lengthen species recovery time, hasten the demise of these species,
or alter habitat that is critical to long-term survival,
magnification of such stressors has a greater potential
to jeopardize the continued existence of listed species
and adversely modify critical habitat.
To date, EPA has not been able know or reliably estimate
the aggregate impacts of CWIS operations on ESA-listed
species and critical habitat. While the Rule does not establish control measures or monitoring and reporting requirements to reduce aggregate impacts from CWIS on
ESA-listed species and designated critical habitat; it does
establish a process that allows the Director to work with
the Services to determine if additional measures are necessary to reduce aggregate impacts and if so, to determine
the associated monitoring reporting requirements. The
Director may then include these measures, monitoring,
and reporting in the permit. If the Director chooses to
not include the measures and associated monitoring and
reporting requirements in the permit and the Services
have concerns that a permit will have more than minor
detrimental effects on federally-listed species or critical
habitat and contact EPA with their concerns, EPA has
committed to the following:

145
i.

EPA will coordinate with the State or Tribe to
ensure that the permit will comply with all applicable CWA requirements and will discuss appropriate measures protective of federally-listed
species and critical habitat;

ii.

EPA will work with the State or Tribe to reduce
or remove the detrimental impacts of the permit,
including, in appropriate circumstances, by objecting to and federalizing the permit where consistent with EPA’s CWA authority; and

iii. EPA will exercise the full extent of its CWA
authority, to object to a permit proposed by a
State where EPA finds (giving deference to the
views of the Services) that a State or Tribal permit is likely to jeopardize the continued existence of such species or result in the destruction
or adverse modification of such critical habitat.
o

Summary

Based on correspondence received from
EPA on April 8, 2014, EPA will give deference to the views of the Services with
regard to effects on federally-listed fish
and wildlife resources.

Stressors associated with the operation of CWIS as
described above have the potential to significantly affect
federally-listed species and designated critical habitat.
EPA has structured the Rule to more reliably estimate
these physical, chemical, or biotic stressors as they
relate to federally-listed species and designated critical
habitat. For permits issued by EPA on a facility by
facility basis, EPA is likely to know or reliably estimate
the physical, chemical, or biotic stressors that are likely

146
to be produced as a direct or indirect result of activities
as they are required to consult with the Services
through the section 7(a)(2) process if the action may affect * * * .
*

*

*

*

*

